<html>
<title> - PLANNED PARENTHOOD EXPOSED: EXAMINING ABORTION PROCEDURES AND MEDICAL ETHICS AT THE NATION'S LARGEST ABORTION PROVIDER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      PLANNED PARENTHOOD EXPOSED:
                   EXAMINING ABORTION PROCEDURES AND
                 MEDICAL ETHICS AT THE NATION'S LARGEST
                           ABORTION PROVIDER

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

                           Serial No. 114-43

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
                       
                    
                               ___________                       



                     U.S. GOVERNMENT PUBLISHING OFFICE
96-905 PDF                WASHINGTON : 2015                     
                       
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  
                     
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                            
                            C O N T E N T S

                              ----------                              

                            OCTOBER 8, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     3

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Member, Committee on the Judiciary.......     6

The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Member, Committee on the Judiciary.....     7

                               WITNESSES

Anthony Levatino, M.D., Obstetrician and Gynecologist, Las 
  Cruces, NM
  Oral Testimony.................................................    10
  Prepared Statement.............................................    12

Susan Thayer, former Planned Parenthood Manager, Storm Lake, IA
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19

Caroline Fredrickson, President, American Constitution Society
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26

Luana Stoltenberg, Davenport, IA
  Oral Testimony.................................................    33
  Prepared Statement.............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by Honorable Ted Poe, a Representative in 
  Congress from the State of Texas, and Member, Committee on the 
  Judiciary......................................................    76

Material submitted by Honorable Hakeem Jeffries, a Representative 
  in Congress from the State of New York, and Member, Committee 
  on the Judiciary...............................................    90

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from Americans United for Life, submitted by the Honorable 
  Bob Goodlatte, a Representative in Congress from the State of 
  Virginia, and Chairman, Committee on the Judiciary.............   114

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................   126
                        OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Supplemental material submitted by Luana Stoltenberg, Davenport, IA. 
    See Support Documents at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104048

Material submitted by the Alliance Defending Freedom. See Support 
    Documents at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104048

 
 PLANNED PARENTHOOD EXPOSED: EXAMINING ABORTION PROCEDURES AND MEDICAL 
            ETHICS AT THE NATION'S LARGEST ABORTION PROVIDER

                              ----------                              


                       THURSDAY, OCTOBER 8, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 2 p.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Smith, Chabot, Forbes, 
King, Franks, Gohmert, Jordan, Poe, Chaffetz, Labrador, 
Collins, DeSantis, Walters, Buck, Ratcliffe, Trott, Bishop, 
Conyers, Nadler, Lofgren, Jackson Lee, Cohen, Johnson, 
Pierluisi, Chu, Deutch, Gutierrez, Richmond, DelBene, Jeffries, 
Cicilline, and Peters.
    Staff Present: Shelley Husband, Chief of Staff & General 
Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
John Coleman, Counsel, Subcommittee on the Constitution and 
Civil Justice; Kelsey Williams, Clerk; (Minority) Perry 
Apelbaum, Minority Staff Director & Chief Counsel; Danielle 
Brown, Parliamentarian & Chief Legislative Counsel; Aaron 
Hiller, Chief Oversight Counsel; and James Park, Chief Counsel, 
Subcommittee on the Constitution and Civil Justice.
    Mr. Goodlatte. Good afternoon. The Judiciary Committee will 
come to order.
    And, without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on ``Planned 
Parenthood Exposed: Examining Abortion Procedures and Medical 
Ethics at the Nation's Largest Abortion Provider.'' And I will 
begin by recognizing myself for an opening statement.
    Before I go to the statement on that, I would like to take 
a moment to remember the life of former Congressman William 
Donlon ``Don'' Edwards, who passed away this month at the age 
of 100.
    Don Edwards was first elected to Congress in 1963, where he 
had a distinguished career working on the Voting Rights Act, 
the Civil Rights Act, and served on the House Judiciary 
Committee during the investigation of the Watergate scandal. 
During this time on the Judiciary Committee, Don Edwards served 
with former Congressman Caldwell Butler, whom I worked for at 
the time.
    When Don Edwards left office in 1995 after 32 years of 
congressional service, he was succeeded by our very own Zoe 
Lofgren in California's 16th District. I had the opportunity to 
serve for 2 years with Congressman Edwards myself and 
appreciated his service.
    And it is now my pleasure to recognize the Ranking Member 
to share a few words about our former colleague.
    Mr. Conyers. Thank you, Mr. Chairman.
    Members of the Committee and our witnesses and all of our 
friends that are here in the hearing room, I knew Congressman 
Don Edwards and worked with him, and he has left a lasting 
legacy.
    He was a progressive, principled man who never stopped 
believing that the coercive power of the government should be 
subject to the highest levels of scrutiny. And I think we still 
carry on that tradition in Judiciary even now. And he also 
wanted us never to forget that our government exists through 
the consent of the governed with the purpose of preserving, and 
not eroding, our rights.
    I am grateful to have been a friend and a colleague of his 
during his service and career in Congress, and we will miss him 
and remember him.
    And I thank the Chair.
    Ms. Lofgren. Mr. Chairman?
    Mr. Goodlatte. The gentlewoman from California is 
recognized.
    Ms. Lofgren. Thank you, Mr. Chairman. I just briefly would 
like to join in the eulogy for Congressman Don Edwards.
    In 1970, I graduated from Stanford University and came out 
to Washington without a job, and Don Edwards hired me. And I 
worked for him for 9 years, both here in Washington and also in 
the California office. We went through the impeachment of 
Richard Nixon, along with your prior boss, and many other 
issues.
    He was a marvelous man, a mentor to me, and someone who was 
widely admired not only in the Congress but in the district 
that he served. I was honored to be able to succeed him in the 
House of Representatives and kept in frequent touch with him.
    He watched all of us in his retirement, and he lived to the 
ripe old age of 100 years. So he had great satisfaction in his 
life. He made his mark.
    And I would just like Members to know that we will be 
having a special order about Congressman Don Edwards on the 
21st of October, and Members are invited to participate.
    And, like Mr. Conyers--I never got to serve with him in the 
Congress, but, as his staff, I certainly was a huge admirer.
    And I thank the Chairman for allowing me these few words.
    Mr. Goodlatte. The gentleman from New York?
    Mr. Nadler. Thank you, Mr. Chairman. I would like to add a 
few words about the late Don Edwards.
    I had the honor of serving with him for 2 years; I was 
elected in 1992. And I knew of him well before I came to 
Congress. I knew of him as one of the leading defenders of 
civil liberties in the United States, and I greatly admired him 
from afar.
    When I came to Congress and I told the then-Speaker--I was 
asked, ``What Committees would you like to serve on?'' and I 
said, ``Well, I'd like to serve on the Judiciary Committee.'' I 
was told that, well, if I wanted to serve on the Judiciary 
Committee, I had to get Mr. Edwards' approval as to my 
attitudes on civil liberties. And so I had an interview with 
him, and I must have satisfied his interest in my attitude 
toward civil liberties because he approved it, and I became a 
Member of this Committee.
    But such was the esteem in which he was held by the 
leadership, that he was given, apparently, that prerogative 
with new Members. And he richly deserved it. He was a leading 
voice of civil liberties for many, many years, and he served 
this country well. And we should thank him for that, thank his 
memory for that.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And now I will begin my opening statement. And we have 
votes on the floor, but perhaps I and the Ranking Member can 
get our statements in before we go to vote.
    A child's heart begins to form 3 weeks after conception. By 
the fifth week, her heart begins to beat, pumping blood 
throughout her little body, and her arm and leg buds begin to 
grow. Her brain begins to develop. Her eyes and ears begin to 
form. By the sixth week, her hands and feet begin to form.
    The following week, her toes can be seen. During this time, 
she kicks and will jump if startled. By 8 weeks, the baby's 
facial features become more distinct. In weeks 9 through 12, 
the baby may begin sucking her thumb. By 10 weeks, she can 
yawn. By 11 weeks, she can make a wide variety of facial 
expressions, including a smile. By 12 weeks, which marks the 
end of the first trimester, she is capable of making a fist.
    But, on any given day, her developing parts, including her 
heart and brain, may be harvested at many Planned Parenthood 
clinics that participate in this practice across this country. 
If her organs are harvested, she will not carry a name. At 
most, she will be referred to as a ``product of conception.''
    Despite the horrific nature of these practices, Planned 
Parenthood's outrage has been directed not at the harvesting of 
baby parts but at the people who caught them talking about 
doing it on video. Indeed, Planned Parenthood argues that the 
videos released by the Center for Medical Progress are highly 
edited, but it is noteworthy to point out that the group hired 
by Planned Parenthood to review the videos found that their, 
``analysis did not reveal widespread evidence of substantive 
video manipulation.''
    A second analysis, commissioned by Alliance Defending 
Freedom, reached a similar conclusion. According to that 
report, the recorded media files indicate that the video 
recordings are authentic and show no evidence of manipulation 
or editing, quote/unquote.
    Today's hearing is about the content contained within the 
videos, including admissions made by Planned Parenthood 
officials that raise serious questions about the treatment of 
our Nation's children who may be born alive following a failed 
abortion. For example, the vice president of Planned Parenthood 
of the Rocky Mountains stated that, in some cases, babies are 
being born intact. She further stated, ``Sometimes we get--if 
someone delivers before we get to see them for a procedure, 
then they are intact. But that's not what we go for.''
    To ensure babies born alive in such instances are given 
necessary medical care, the House passed H.R. 3504, the ``Born-
Alive Abortion Survivors Protection Act,'' which requires that 
babies surviving an abortion be given the same treatment and 
care that would be given to any child naturally born premature 
at the same age and imposes criminal penalties at the Federal 
level to prevent the killing of innocent human babies born 
alive.
    Moreover, these videos indicate abortion practitioners may 
have adopted new abortion procedures to avoid the risk of 
violating the Partial-Birth Abortion Ban Act. In the first 
video, the senior director of medical services at Planned 
Parenthood Federation of America stated that, ``the Federal 
abortion ban is a law, and laws are up to interpretation.'' 
Today's hearing is in part intended to explore what 
interpretations by abortion practitioners have arisen since the 
law's passage.
    I look forward to hearing from our witnesses here today.
    And it is now my pleasure to recognize the Ranking Member 
of the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you.
    Mr. Chairman and Members of the Committee, we want to take 
a moment to walk through the events that have led up to this 
hearing.
    We know from reports that the gentleman from Arizona, Mr. 
Franks, and others in the majority had viewed at least some of 
the videos about a month before they were released. On July 15 
of this year, the first video was released to the public. Now, 
these were posted online over the August break.
    Three different House Committees then launched simultaneous 
congressional investigations. On September 9, this Committee 
held its first hearing on the topic, at which the witnesses for 
the majority refused to discuss the videos at the heart of the 
matter. There have been since two other hearings on this topic, 
making this the fourth in the House in less than a month. And, 
finally, the majority has announced that it will create a new 
taxpayer-funded Select Committee to extend this so-called 
investigation indefinitely.
    As I reflect on these events, I think we are able to draw 
some conclusions, the first being that there is no evidence in 
the record whatsoever of illegal activity at Planned 
Parenthood.
    On behalf of its 59 affiliates, the Planned Parenthood 
Federation of America has provided this Committee with hundreds 
of pages of documents. The organization is cooperating fully 
with all three investigations in the House. The documents we 
have reviewed so far allow us to go point by point to correct 
the false impressions created by the highly edited, highly 
misleading videos that nominally inspired these investigations.
    Chairman Chaffetz, who sits on this Committee and is 
running his own investigation into these matters in the 
Oversight Committee next-door, has agreed with this conclusion. 
Last week, Wolf Blitzer asked the gentleman from Utah, ``Is 
there any evidence that Planned Parenthood has broken any 
law?'' Mr. Chaffetz answered with the truth: ``No, I'm not 
suggesting that they broke the law.''
    I'm led to conclude that this hearing, much like the 
broader attack on Planned Parenthood, may be political 
theater--may be--designed to rally the conservative base and 
roll back the constitutional right to choose, wherever 
possible.
    In practice, these investigations have had little to do 
with the videos, which some went to great lengths not to 
discuss at our last hearing. They have everything to do with 
appeasing the most conservative elements of one of the parties 
during an interparty leadership crisis and a fractious 
Presidential primary.
    Now, we may have a legitimate difference of opinion on Roe 
v. Wade, but it remains the law of the land. And the attempt by 
some to relitigate a 40-year-old decision places thousands of 
lives at risk.
    Many women enter the healthcare system through a family 
planning provider. In fact, 6 in 10 women who receive services 
at a publicly funded family planning center consider it their 
primary source of medical care. Planned Parenthood alone serves 
2.7 million Americans every year.
    Abortion procedures make up an incredibly small amount of 
the services it provides, only 3 percent. For example, in 2013, 
Planned Parenthood provided 900,000 cancer screenings to women 
across the country. 88,000 of those tests detected cancer early 
or identified abnormalities that might signal a greater risk of 
cancer.
    In short, in this way and so many others, Planned 
Parenthood saves lives. And so the attempt to defund Planned 
Parenthood places each of those lives at risk. We should be 
grateful that the effort has been almost entirely unsuccessful, 
at least so far, on the Federal level.
    And, finally, it is important to observe all of the good 
work this Committee could be doing instead of meeting for the 
second time on this subject in 30 days. And as we head into our 
second election season since Shelby County v. Holder, this 
Committee has done very little, could do a lot more, to restore 
the enforcement mechanisms of the Voting Rights Act.
    We have done little to advance comprehensive immigration 
reform even though proposals remain overwhelmingly popular and 
would probably easily pass the House. We've got to start 
acting. And so 11 million men and women are waiting to come out 
of the shadows and contribute to our economy and communities, 
and, at this pace, I fear they will have to wait even longer.
    And although the scourge of gun violence has touched every 
one of our districts, including yours, Mr. Chairman, we have 
all but ignored calls to strengthen background checks and close 
the gun show loophole.
    All of these solutions would save lives. All of them are 
consistent with our constitutional rights. And the list of 
missed opportunities is long, and our time is short. We should 
not spend one more minute or one more taxpayer dollar vilifying 
Planned Parenthood without a speck of evidence to back these 
claims. This Committee has too much important work to do.
    And I urge my colleagues to help us put this kind of 
theater behind us. We can do better.
    I thank the Chairman and appreciate the opportunity to 
express my views.
    Mr. Goodlatte. The Chair thanks the gentleman.
    There is 1 minute remaining in this vote. Happily, we are 
amongst 320 Members who have not yet voted. So head to the 
floor.
    And the Committee will stand in recess until these votes 
conclude and resume immediately thereafter.
    [Recess.]
    Mr. Goodlatte. The Committee will reconvene.
    And it is now my pleasure to recognize the Chairman of the 
Subcommittee on the Constitution and Civil Justice, the 
gentleman from Arizona, Mr. Franks, for his opening statement.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, the tiny diaper that I hold in my hand is one 
made to fit premature born-alive babies. Micro-preemies or 
ultra-preemies they're called.
    And when I first saw one of these little diapers, it moved 
my heart very deeply, because I think I saw it in the context 
of the numerous video recordings that have been released in 
recent months that tragically demonstrate that the Kermit 
Gosnells of this world have no monopoly on the abortion 
industry's unspeakable and murderous cruelty to pain-capable 
unborn children and to little babies who actually survive the 
trauma of going through an abortion. It is the little babies of 
exactly this age and stage of development that these little 
diapers were made to fit.
    And, Mr. Chairman, it is easy for me to understand why the 
abortion industry's shrill response to these videos has been to 
try to discredit them in every way possible. They really have 
no choice. Because if they fail to discredit these videos or to 
dissuade people from seeing them, they know that anyone with a 
conscience who does watch these videos will finally see Planned 
Parenthood and the abortion industry for who they truly are, 
and this murderous industry will be rejected in the hearts of 
the American people.
    However, Mr. Chairman, a forensic digital analysis by 
Coalfire, Incorporated, of these video recordings conclusively 
indicate that the videos are indeed authentic and show no 
evidence of manipulation or deceptive editing.
    Now, this conclusion is supported by the consistency of the 
video file dates, timestamps, the video time codes, as well as 
the folder and file naming scheme. The uniformity between the 
footage from the cameras from the two different investigators 
also confirms the evidence that these video recordings are 
completely authentic.
    Mr. Chairman, our response as a people and Nation to these 
atrocities incontrovertibly documented by these videos is vital 
to everything those lying out in Arlington National Cemetery 
died to save.
    The House of Representatives very recently passed H.R. 
3504, the Born-Alive Abortion Survivors Protection Act. And I 
am told that Democrats in the Senate intend to filibuster even 
this bill that protects not unborn children but, rather, little 
children who have been born alive.
    Now, no one can obscure the humanity and personhood of 
these little born-alive babies or claim conflict with the now 
completely separate interests of the mother and the child, nor 
can they take refuge within this schizophrenic paradox Roe v. 
Wade has subjected this country to for now more than 40 years.
    Mr. Chairman, the abortion industry has labored for all of 
these decades to convince the world that born children and 
unborn children should be completely separated in our minds. In 
the past, they have said that, while born children are persons 
worthy of protection, unborn children are not persons and are 
not worthy of protection.
    But those same people who now oppose this bill to protect 
born-alive children suddenly have the impossible task of trying 
to rejoin these born children and these unborn children back 
together again and then trying to convince us all to condemn 
them both, born and unborn, as now collectively inhuman, and 
neither of them are worthy of protection after all.
    To anyone who has not invincibly hardened their heart and 
soul, an honest consideration of this absurd inconsistency is 
profoundly enlightening. Because, you see, Mr. Chairman, this 
country has faced such a paradox before; we have faced such 
self-imposed blindness before. Because there was a time in our 
own parliamentary rules in this House that we banned discussion 
or debate about the effort to end human slavery in America.
    But that debate did come, Mr. Chairman, and with it came a 
time when the humanity of the victims and the inhumanity of 
what was being done to them finally became so glaring, even to 
the hardest of hearts, that it moved an entire generation of 
the American people to find the compassion and the courage in 
their souls to change their position. And now, to this 
generation, Mr. Chairman, that moment has come again.
    And I would implore every Member of this Committee to ask 
two questions in the stillness of his or her heart: First, is 
deliberately turning a blind eye to the suffering and murder of 
the most helpless of all of our children born alive in the 
United States of America who we have truly become as a Nation? 
And, second, is voting against or filibustering against a bill 
to protect born-alive human babies from agonizing dismemberment 
and death who I have become and want to be remembered for as a 
Member of the United States Congress?
    And, with that, Mr. Chairman, I will yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and now 
recognizes the Ranking Member of the Subcommittee on the 
Constitution and Civil Justice, the gentleman from Tennessee, 
Mr. Cohen, for his opening statement.
    Mr. Cohen. Thank you, Mr. Chairman. I appreciate the time, 
although I don't necessarily appreciate the subject matter.
    This is the second time in 30 days we are holding a full 
Committee hearing ostensibly on whether Planned Parenthood has 
violated any laws. As Ranking Member Conyers and many others, 
including Chairman Jason Chaffetz of the Oversight and 
Government Reform Committee, have made clear, there is no 
credible evidence supporting any allegation that Planned 
Parenthood has broken any law.
    Ironic that we do this on a day that we honor Don Edwards, 
who did so much with the Constitution and Civil Justice 
Committee, who passed so many laws to protect people's civil 
rights and to move this country forward, and to this date when 
the Committee does very little.
    Knowing that there is no ground to stand on regarding the 
legality of Planned Parenthood's actions, it is obvious the 
majority has chosen instead to move the goalposts. I suspect 
this hearing, like our last one, will ultimately dissolve into 
the never-ending argument of whether the Supreme Court rightly 
decided Row v. Wade, which for more than 42 years has 
guaranteed a women's constitutional right to choose. It is the 
law of the land. There is no such thing as murder. Murder is 
unlawful. This is lawful, a woman's choice, and within a 
certain period of time.
    We are not likely to hear anything and learn anything new, 
but we will hear the same arguments. But one thing we will see 
is we will get a little bit something new. Most of my 
Democratic colleagues and I strongly believe in a woman's right 
to choose and that that is a fundamental right, it is a pillar 
of women's equality, and the Court got it right in Roe v. Wade. 
And I suspect most of my colleagues on the other side of the 
aisle believe the opposite--different values, different 
backgrounds they have than I have. The Court agrees with me.
    I also suspect they disagree with me and most of my 
Democratic colleagues who strongly believe in Planned 
Parenthood and the 97 percent of its work that is not abortion: 
critical healthcare services, including health screenings, 
birth control counseling, particularly cancer, women's cancer.
    These services are especially important for women of low 
income and minority women, for whom Planned Parenthood receives 
Medicaid reimbursements that constitute most of its Federal 
funding--Medicaid reimbursement for treating, observing, 
testing women for cancers and giving them birth control and 
advice.
    In fact, it is against the law to use Federal funding 
because of the Hyde amendment. So none of that exists.
    So we are likely to have an unfocused, scattershot, and 
ultimately pointless discussion over whether the constitutional 
right of women to make decisions about their bodies is a good 
or a bad thing--a question the Supreme Court clearly answered 
in 1973, but here we are today.
    We could be talking about voting rights, something that Don 
Edwards voted for and greatly supported and my friend Julian 
Bond, memorialized on Tuesday, championed, but have taken a big 
step back. We could be talking about gun violence, people dying 
in Oregon, people dying all around this country, but we are not 
doing that. We could be talking about pardons and commutations 
for nonviolent offenders. And, thankfully, the White House is 
taking action, and this Committee will do some more action on 
that with a comprehensive bill. And I thank the Chairman for 
his working with our Ranking Member on that. But we are not.
    Let us not forget this entire exercise is based on heavily 
edited videos doctored to make Planned Parenthood to be engaged 
in unlawful conduct, which it isn't, including the for-profit 
sales of fetal organs and tissues.
    At this point, I ask unanimous consent to play a 
compilation prepared by Oversight and Government Reform 
Committee Democrats of the portion of the unedited video of Dr. 
Deborah Nucatola, portions that we do not see in the edited 
video, in which she makes clear that Planned Parenthood does 
not sell tissue or organs for profit, and to enter that video 
into the record.
    Mr. Goodlatte. Without objection, the video will be shown 
and made a part of the record.
    Mr. Cohen. Thank you.
    And if we could start playing it at 30 seconds and end it 
at 1:55.
    [Video shown.]
    Mr. Cohen. Thank you.
    I think that is very telling testimony, all edited out and 
wouldn't be seen in those videos that they are talking about, 
where she makes clear it is not about making money, it is not 
Planned Parenthood's policy, and Planned Parenthood's policy is 
different. Some might donate it for free and give it for free, 
it is a woman's decision, and it is not our deal. But he kept 
going, ``Right, right, right,'' like, ``Stop saying this. This 
isn't what I want to hear.''
    Last night, the Cubs beat the Pirates four to nothing. If 
they would have edited the game, take out the four runs, and we 
would still be playing. And that would be as fair a 
presentation of the game as there has been of this video.
    This investigation of Planned Parenthood is based on false 
premises, one after another after another. It is time to stop 
wasting time, get on with meaningful work, and stop picking on 
women and trying to take their choice away.
    I yield back the balance of my time.
    Mr. Goodlatte. The time of the gentleman has expired.
    We welcome our distinguished witnesses today.
    And if you would all please rise, I will begin by swearing 
you in.
    Do you and each of you swear that the testimony that you 
are about to give shall be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Thank you.
    The witnesses may be seated.
    And let the record reflect that they all responded in the 
affirmative.
    And I will now begin by introducing today's witnesses.
    The first witness is Dr. Anthony Levatino. Dr. Levatino is 
a board-certified obstetrician-gynecologist. Over the course of 
his career, Dr. Levatino has practiced obstetrics and 
gynecology in both private and university settings, including 
as an associate professor of OB-GYN at the Albany Medical 
College.
    Our next witness is Ms. Susan Thayer. Ms. Thayer worked for 
nearly 18 years as the center manager of the Planned Parenthood 
clinic in Storm Lake, Iowa. She was fired in December 2008 when 
she expressed concerns about webcam abortions. She has since 
become a strong voice for life and educates the public about 
abortion and specifically webcam abortions.
    Our next witnesses is Ms. Caroline Fredrickson. Ms. 
Fredrickson is president of the American Constitution Society. 
She has been widely published on a range of legal and 
constitutional issues and is a frequent guest on television and 
radio shows. Before joining American Constitution Society, 
Caroline served as the director of the ACLU's Washington 
legislative office and as general counsel and legal director of 
NARAL Pro-Choice America.
    Our final witness is Ms. Luana Stoltenberg. Ms. Stoltenberg 
is a public speaker for Operation Outcry, a ministry that seeks 
to educate the public about the devastating consequences of 
abortion. Ms. Stoltenberg is a resident of Davenport, Iowa.
    Welcome to you all.
    Your written statements will be entered into the record in 
their entirety, and I ask that you each summarize your 
testimony in 5 minutes or less. To help you stay within that 
time, there is a timing light on your table. When the light 
switches from green to yellow, you have 1 minute to conclude 
your testimony. When the light turns red, it signals that your 
5 minutes have expired.
    And, Dr. Levatino, we will begin with you. Welcome.

             TESTIMONY OF ANTHONY LEVATINO, M.D., 
         OBSTETRICIAN AND GYNECOLOGIST, LAS CRUCES, NM

    Dr. Levatino. Thank you, Chairman and Members of the 
Committee. I only have 5 minutes, so I'm going to get right to 
it.
    Second-trimester D&E abortion is performed between roughly 
14 and 24 weeks of gestation. Your patient today is 17 years 
old; she's 22 weeks pregnant. Her baby is the length of your 
hand plus a couple of inches, and she's been feeling her baby 
kick for the last several weeks. And she's asleep on an 
operating room table.
    You walk into that operating room, scrubbed and gowned, and 
after removing laminaria, you introduce a suction catheter into 
the uterus. This is a 14 French suction catheter. If she were 
12 weeks pregnant or less, basically the width of your hand or 
smaller, you could basically do the entire procedure with this, 
but babies this big don't fit through catheters this size.
    After suctioning the amniotic fluid out from around the 
baby, you introduce an instrument called the Sopher clamp. It's 
about 13 inches long. It's made of stainless steel. The 
business end of this clamp is about 2 1/2 inches long and a 
half-inch wide. There are rows of sharp teeth. This is a 
grasping instrument, and when it gets a hold of something, it 
does not let go.
    A D&E procedure is a blind abortion, so picture yourself 
introducing this and grabbing anything you can blindly and 
pull, and I do mean hard, and out pops a leg about that big, 
which you put down on the table next to you. Reach in again, 
pull again, pull out an arm about the same length, which you 
put down on the table next to you. And use this instrument 
again and again to tear out the spine, the intestines, the 
heart, and lungs.
    The head on a baby that size is about the size of a large 
plum. You can't see it, but you've a pretty good idea you've 
got it if you've got your instrument around something and your 
fingers are spread about as far as they go. You know you did it 
right if you crush down on the instrument and white material 
runs out of the cervix. That was the baby's brains. Then you 
can pull out skull pieces. And if you have a day like I had a 
lot of times, sometimes a little face comes back and stares 
back at you.
    Congratulations. You've just successfully performed a 
second-trimester D&E abortion. You just affirmed your right to 
choose.
    When we talk about abortions even later, 23 weeks and up--
and we're talking up to 35 weeks and essentially all the way to 
term--the most commonly used procedure at this point is called 
the MOLD technique. I have not done any of these myself, but I 
can have the abortionists themselves in their clinic describe 
what we're talking about.
    Will you please run my video?
    Mr. Goodlatte. The video will be run.
    [Video shown.]
    Dr. Levatino. So, for $10,000, a woman 27-weeks pregnant 
gets to labor alone, unattended, in a hotel room, with no one 
there to watch her vital signs or otherwise attend her. And if 
her baby delivers into a toilet, her own dead son or daughter, 
so be it.
    Thank you.
    [The prepared statement of Dr. Levatino follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                               ATTACHMENT
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
    Mr. Goodlatte. Thank you, Dr. Levatino.
    Ms. Thayer, welcome.

 TESTIMONY OF SUSAN THAYER, FORMER PLANNED PARENTHOOD MANAGER, 
                         STORM LAKE, IA

    Ms. Thayer. Thank you, Mr. Chairman and Members of the 
Committee.
    From April 1991 to December 2008, I was employed by Planned 
Parenthood of the Heartland as center manager of its Storm Lake 
and Le Mars, Iowa, clinics. I spent 17 years learning from the 
inside out just how Planned Parenthood works. I concluded that 
no business, certainly no healthcare business, should view a 
woman's body as a profit center, but that is what Planned 
Parenthood is all about. They're more concerned with profits 
than about the health of women.
    When I first began working for Planned Parenthood, I was 
convinced that I was serving my community and the health needs 
of women. As the parent of 5 children, including 3 adopted 
kids, and a foster mom to 130 kids over the past 28 years, I 
didn't fit well into Planned Parenthood's corporate culture. 
Though during my initial interview I expressed concerns about 
abortion, I was hired and promoted by Planned Parenthood. I 
believed that I could help reduce abortion and serve women.
    Over time, I learned that I was wrong to trust Planned 
Parenthood. I'm here today because all people need to know the 
truth about Planned Parenthood.
    In 2002, the remains of a newborn, a full-term child, were 
discovered in a trash dump in my small Iowa town. After 
determining that the child had been born alive, the sheriff 
investigating the murder of this child came to my clinic to 
seek medical records of potential suspects.
    I assumed that Planned Parenthood would want to cooperate 
with this criminal investigation. Instead, Planned Parenthood 
turned the murder into a fundraising opportunity and falsely 
claimed that all women's health records would be compromised 
and that a woman's right to abortion was under attack. As it 
often seems to do, Planned Parenthood raised thousands of 
dollars from this sordid event.
    Like most of Iowa's Planned Parenthood clinics, birth 
control pills were dispensed to patients without the patients 
ever having been seen by a medical professional. Once a week, a 
nurse practitioner would come to the Planned Parenthood clinics 
to sign off on birth control prescriptions that had been 
dispensed the prior week.
    In 2007, I learned more about the truth of Planned 
Parenthood when it implemented webcam abortion. Here is how 
this was to work: A woman with a positive pregnancy test would 
be offered a webcam abortion on the spot so she couldn't change 
her mind. Next, a nonmedical clinic assistant with minimal 
training would perform a transvaginal ultrasound and scan the 
image to a doctor in another location. The doctor would briefly 
talk to the woman by a Skype television connection. Then the 
doctor could push a button on her computer that opened a drawer 
in which were the abortion pills. The woman was told to take 
one set of pills at the clinic and then, to complete her 
abortion, take the second set of pills at home 48 hours later.
    Planned Parenthood instructed its clinic workers to tell 
women who experienced complications at home to report to their 
local ER. The women were told to say they were experiencing a 
miscarriage, not that they had undergone a chemical abortion.
    Planned Parenthood cut its costs to the bone by performing 
webcam abortions with virtually no overhead--no onsite doctors, 
no real medical staff, very little equipment, and no expense 
for travel to a remote clinic. And yet it charged women the 
same fee for a chemical abortion as it did for a surgical 
abortion. Webcam abortion is obviously a big moneymaker for 
Planned Parenthood.
    I expressed my concerns to Planned Parenthood management 
that webcam abortions were unsafe and possibly illegal. Today, 
Planned Parenthood's webcam abortion scheme is so financially 
successful it's been implemented in both Iowa and Minnesota. 
They touted it as the first in the Nation and had plans to 
expand webcam abortion to every State.
    After I left Planned Parenthood, I realized that it had 
been fraudulently billing Iowa Medicaid's program. It had filed 
false Medicaid claims totaling about $28 million. First, 
through its C-Mail program, it dispensed without a prescription 
medically unnecessary oral contraceptive pills to Medicaid 
patients. Second, it billed Medicaid for abortion-related 
services, in violation of Federal law. Third, it coerced 
donations from patients, in violation of Medicaid regulations.
    Each of these initiatives was implemented to benefit 
Planned Parenthood's bottom line. None benefited women's 
health. Planned Parenthood is organized as a tax-exempt 
nonprofit; nevertheless, these are some of the reasons that it 
has reported $765 million in excess revenue over the last 10 
years.
    When I first began working at Planned Parenthood, I trusted 
them and thought its leaders knew what was right, but I learned 
that it could not be trusted. In fact, it does not deserve to 
be trusted by any American, woman or man. Planned Parenthood is 
more concerned about its bottom line than it is about the 
health and safety of women.
    Thank you.
    [The prepared statement of Ms. Thayer follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Goodlatte. Thank you, Ms. Thayer.
    Ms. Fredrickson, welcome.

     TESTIMONY OF CAROLINE FREDRICKSON, PRESIDENT, AMERICAN 
                      CONSTITUTION SOCIETY

    Ms. Fredrickson. Good afternoon, Chairman Goodlatte and 
Ranking Member Conyers and distinguished Members of the 
Committee. My name is Caroline Fredrickson, and I'm the 
president of the American Constitution Society for Law and 
Policy. I am testifying today in my personal capacity and do 
not purport to represent any institutional views of the 
American Constitution Society. Thank you for providing me the 
opportunity to testify here today in response to this most 
recent attack on Planned Parenthood.
    Planned Parenthood is a nearly century-old healthcare 
provider that plays a critical role in securing the right to 
health care for millions of Americans. Each year, Planned 
Parenthood health centers provide services such as family 
planning counseling and contraception, breast exams, and 
testing and treatment for sexually transmitted infections to 
2.7 million patients. And no less than one in five women in the 
United States has visited a Planned Parenthood health center at 
least once in her lifetime.
    These services help women prevent an estimated 516,000 
unintended pregnancies and 217,000 abortions every year. These 
are services that women, men, and young people in this country 
desperately need and that many would go without should they 
lose access to Planned Parenthood's health centers.
    Planned Parenthood provides services at approximately 700 
health centers, located in every State in the Nation, and 54 
percent of these health centers are in rural or medically 
underserved areas or areas with shortages in health 
professionals. As many experts have opined, there are simply 
insufficient numbers of alternative healthcare providers to 
absorb the patients who need care should they lose access to 
Planned Parenthood.
    Planned Parenthood health centers are particularly crucial 
for poor women in this country. More than half of Planned 
Parenthood's 2.7 million patients each year rely on public 
health programs, such as Medicaid, to cover their costs. And 78 
percent of Planned Parenthood's patients live with incomes of 
150 percent of the Federal poverty level or less. Indeed, in 68 
percent of the counties with a Planned Parenthood health 
center, Planned Parenthood serves at least half of all safety-
net family patients.
    Planned Parenthood is an integral part of the healthcare 
system in this country. It provides critical healthcare 
services to many women, particularly poor women, who might 
otherwise go without these services.
    This most recent round of attacks on Planned Parenthood was 
instigated by an anti-choice organization, the Center for 
Medical Progress, whose members deceptively infiltrated Planned 
Parenthood clinics and conferences, claiming they worked for a 
tissue procurement company. The CMP
    representatives surreptitiously and possibly illegally 
recorded meetings with Planned Parenthood staff and then, over 
the course of several months, released numerous videos of these 
encounters. CMP now claims the videos show that Planned 
Parenthood acted illegally in selling fetal tissue and 
violating the Partial-Birth Abortion Ban Act.
    At the outset, regardless of the content of the videos as 
released by CMP, which arguably show no wrongdoing at all, 
those videos are unreliable and unusable as any evidence 
because they've been so heavily and selectively edited and CMP 
has not released to anyone the full, unedited versions.
    In fact, Planned Parenthood hired experts to review the 
videos and assess their authenticity. And those experts, 
including Grant Fredericks, who is a contract instructor of 
video sciences at the FBI and one of the most experienced video 
experts in North America, found many deceptive edits in those 
videos. In many cases, CMP edited dialogue out of context in 
ways that substantively altered the meaning of the dialogue. In 
other cases, large segments of dialogue were simply omitted 
altogether.
    There is no question that both the shorter videos and the 
so-called full-footage videos are selectively and intentionally 
edited and incomplete. As such, in the words of the expert 
analysis, the manipulation of the videos does mean they have no 
evidentiary value in a legal context and cannot be relied upon 
for any official inquiries.
    Moreover, every jurisdiction that has conducted 
investigations into Planned Parenthood's activities have found 
no wrongdoing. As of this date, six States have completed 
investigations into whether Planned Parenthood violated any 
laws in its fetal tissue donation program. All six unanimously 
concluded that Planned Parenthood did not.
    And, in fact, Representative Jason Chaffetz, Chairman of 
the House Committee on Oversight and Government Reform, whose 
Committee questioned Planned Parenthood CEO Cecile Richards at 
length just last week, admitted to CNN's Wolf Blitzer, ``No, 
I'm not suggesting that they broke the law.''
    In sum, there's absolutely no evidence here that Planned 
Parenthood has violated any laws.
    As we all know, this is one in a long length of videos that 
have been used to try and undermine women's access to the full 
reproductive health care that they are entitled to under the 
law in America and have need of to ensure they can live full 
lives.
    So I respect the Committee and thank you for inviting me 
here to talk about this important issue.
    [The prepared statement of Ms. Fredrickson follows:]
        Prepared Statement of Caroline Fredrickson, President, 
            American Constitution Society for Law and Policy
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                  __________
    Mr. Goodlatte. Thank you.
    Ms. Stoltenberg, welcome.

          TESTIMONY OF LUANA STOLTENBERG, DAVENPORT, IA

    Ms. Stoltenberg. Thank you, Mr. Chairman and all of the 
Committee Members.
    My life has been devastated by abortion. I was a teenager 
when I had my first abortion. I was too afraid to tell my 
parents that I was pregnant, and my boyfriend didn't want a 
baby, so I made my appointment with Planned Parenthood.
    I was so scared when I arrived. I paid my money, and I sat 
in the waiting room. I was then taken back to a room with a 
nurse and asked how I felt about this. I told her this had to 
be wrong, it had to be a baby. She told me it was just a blob 
of tissue, that this abortion would be easier and safer than if 
I carried it to term.
    I was a scared teenager with no medical knowledge or 
experience. They were the trusted medical professionals and 
adults, so I thought. So I trusted and I believed them, and I 
went through with the procedure.
    The type of abortion that I had was a vacuum aspirator 
method. This is the most common abortion done in the first 
trimester. I laid on the table, and I waited for the doctor 
that I had never met before, which is most times the case, to 
come in. This doctor was cold, and he was unfriendly. He told 
me to lie still and that it wouldn't take long.
    I had no anesthetic for the pain. He said that I would just 
feel tugging and a slight sensation and cramping. That was not 
true. It was the most extremely painful procedure I've ever had 
done.
    I could hear the increased labor every time the suction 
machine would pull a part or a limb of my baby from my body.
    Each time I kept trying to sit up to see what was going 
into that jar. Was it my baby? They kept pushing me back down 
and telling me to lie still. As soon as the procedure was over, 
they quickly wheeled the jar out of the room with my baby's 
remains.
    They knew it was my baby. They saw the head. They saw the 
feet. They saw the arms.
    I wasn't told about fetal development when I was at Planned 
Parenthood. They didn't tell me that my unborn baby that they 
were ripping out of my body would have arms, have legs, have a 
heartbeat, fingerprints, and she could feel pain.
    Why didn't they want to tell me that? Were they afraid that 
I would change my mind? It must have been a wrong choice if, 
after knowing all the facts, I chose life for my child.
    On the way home, I was in severe pain. I laid in the back 
seat crying and bleeding profusely. And when I got home, I 
called Planned Parenthood, and I told them about the pain and 
the bleeding. They told me that this was no longer their 
problem, that I would need to call my own physician. There was 
no way I was going to call my own physician. I was too scared. 
I was too ashamed, and I didn't want my parents to find out 
what I had done. So I painfully laid there that day and 
wondered if I would die. The happy, fun-loving Luana did die 
that day along with my baby. I became depressed, angry. I 
started drinking heavily. I started doing drugs, and I became 
very promiscuous. I hated myself. My life was spinning out of 
control. I became pregnant two more times and chose abortion 
both times. Each experience was similar. To the first, except 
for the second abortion, they showed me blobs of tissue on 
slides and told me that that's all they would be removing, not 
a baby. By the third abortion, I was so ashamed and 
embarrassed, embarrassed, I didn't even give them my real name. 
I gave them a friend of mine's name. I cringe to think what 
would have happened if there would have been complications or I 
died on the table that day. Who would they have called? Would 
my parents have ever found out?
    Having an abortion didn't solve any of my problems. It only 
created new ones and larger ones. The way I dealt with them was 
more alcohol, more drugs, anything to numb the pain, and I even 
tried to kill myself.
    But God had a plan for my life. I found hope and 
forgiveness in Jesus, and I accepted him as my Lord, and my 
life began to change. I met a wonderful man, and we were 
married, and we wanted to start a family, but we were having no 
success. I went for endless tests. And one of the tests that I 
had done was a dye test to determine if there were blockages in 
my fallopian tubes. During the test, my doctor asked if I had 
ever had abortions, and I admitted that I had three. She showed 
me on the screen where my tubes were damaged and mangled from 
the abortion procedure. She said, I would never have children 
because of the abortion, and she wanted me to have a 
hysterectomy so I would not have an atopic pregnancy. She left 
the room, and I laid there paralyzed and let it soak in that 
the only children I would ever bear I had killed.
    I had to tell me husband that he was never going to be able 
to have his own children because of the choices I had made. I 
wondered if he would want a divorce. We had a hard road of 
tears and sleepless nights and counseling sessions. I learned 
to forgive myself and the abortion workers for not telling me 
the risks and the possibilities of infertility. I was angry 
that I was lied to and that I didn't get all the facts so that 
I could make the choice for myself. I thought they were pro-
choice and cared for women. I didn't feel cared for. I felt 
used, and I felt abused. I live with the consequences and the 
pain and the regret of abortion every day along with many other 
women.
    In front of me are pages of sworn testimonies of women who 
have been hurt and abused physically, emotionally, 
psychologically by Planned Parenthood and other abortion 
industry in general. I'm here representing them as well as 
myself, and it is a heavy load. I'm asking you to please 
consider these stories in mind when you make legislation and 
when you make decisions about defunding Planned Parenthood and 
about abortion.
    All of us who have been hurt by abortion are being made to 
pay Planned Parenthood with our tax dollars. You know, that's 
like being forced to pay your abuser over and over again. 
Abortion is not health care. It is the taking of an innocent 
life. Thank you.
    [The prepared statement of Ms. Stoltenberg follows:]
        Prepared Statement of Luana Stoltenberg, Davenport, Iowa
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                                 __________
    Mr. Goodlatte. Thank you, Ms. Stoltenberg.
    We'll now proceed under the 5-minute rule with questions 
for witnesses. And I'll begin by recognizing myself.
    Before I begin my questioning, I would like to show a quick 
video that puts a human face on the issues presented here 
today.
    [Video shown.]
    Mr. Goodlatte. Ms. Stoltenberg, thank you for sharing with 
us your very personal experiences following the three abortions 
you underwent. On Planned Parenthood's Web site, there are 
frequently asked questions associated with abortion. One 
considers whether there are long-term risks associated with 
abortion stating, ``Safe, uncomplicated abortion does not cause 
problems for future pregnancies,'' and, ``Ultimately, most 
women feel relief after an abortion.''
    Based on your experience, do you think these 
characterizations provide women with all the information they 
need about the risks associated with the abortion procedure 
they are about to undergo?
    Ms. Stoltenberg. No, I do not. I didn't hear any of those 
risks from them, and I don't believe that's a true statement at 
all. My story proves that, that this was not safe for me. I 
couldn't have children. And all these stories prove that. 
People have been physically harmed. I have a friend who lost a 
daughter on the table of an abortionist. There are 
ramifications, and it does hurt women.
    Mr. Goodlatte. Thank you.
    Dr. Levatino, the 2009 National Abortion Federation 
textbook on comprehensive abortion care states that, some 
patients or clinicians prefer initiating the abortion procedure 
with a nonliving fetus for emotional reasons or to avoid the 
problem of a transiently living neonate at the time of fetal 
expulsion. That's on page 185. What, in plain English, are they 
referring to in this sanitized statement?
    Dr. Levatino. They are referring to----
    Mr. Goodlatte. Turn your microphone on.
    Dr. Levatino. I can't remember that microphone.
    They are referring to bringing about a fetal death prior to 
initiating the procedure. You can do that a couple of ways. One 
is through the use of digoxin, which is actually what was on 
that video. And another one is through the use of potassium 
chloride. Potassium chloride is, I'll say, a more dangerous 
drug, and it is much more difficult to administer effectively 
to cause fetal death. By injecting digoxin either in large--
moderately large doses into the amniotic sac or directly into 
the fetus, as was shown there, you can cause a fetal death. And 
that obviates the problem--if you are successful in that, you 
obviate the problem of a live birth. With a D&E abortion that I 
described initially, between 14 and 24 weeks and dismembering a 
baby--dismemberment abortion, if you wish, there's no chance of 
a life birth at all. But when you use these later techniques 
where you are essentially inducing labor through the laminaria 
and another drug called misoprostol, if you don't induce fetal 
death ahead of time, then you run the risk of a live birth, and 
then you have the situation of a person under the law, even as 
our laws are constituted, that has a right to medical care, 
which is obviously not going to be available in hotel rooms or 
in clinics. These women need to be in hospitals. I think that's 
what they're referring to.
    Mr. Goodlatte. Thank you.
    One more question, Dr. Levatino. Why did you end your 
practice of doing abortions?
    Dr. Levatino. I did over 1,200 abortions over a 4-year 
period in private practice, not counting the ones that I did 
during my training. I met my wife during my first year of 
training at Albany Medical Center. We got married about a year 
later and found that we had an infertility problem. After years 
of failed infertility treatment and several years trying to 
adopt a child, we were blessed with adopting of a little girl 
that we named Heather in August 1978. As sometimes happens in 
those situations, my wife got pregnant the very next month, and 
we had two children 10 months apart. Two months short of my 
daughter Heather's 6th birthday, she was killed in an auto 
accident, literally died in our arms in the back of an 
ambulance. Anyone who has children might think they have some 
idea of what that feels like, but unless you've been through it 
yourself, you have no idea whatsoever.
    I know people find it hard to believe, but what do you do 
after a disaster? You bury your child, and then you go back to 
your life. And I don't remember exactly how long it was after 
my daughter died that I showed up at Albany Medical Center OR 
No. 9 to perform my first second-trimester D&E abortion. I 
wasn't thinking it was anything special; this was routine to 
me. But I reached in, literally pulled out an arm or a leg, and 
got sick. You know, earlier on, I described stacking of body 
parts on the side of the table. It's not to, you know, gross 
people out, to use a simple term. When you do an abortion, you 
need to keep inventory. You have to make sure you get two arms 
and two legs and all the pieces. If you don't, your patient is 
going to come back infected, bleeding, or dead. So I soldiered 
on and finished that abortion. And I know it sounds, as I said, 
hard for people to believe, but I'm telling you straight up my 
experience. You know, after over 1,200 abortions, first and 
second trimester up to 24 weeks, and all the rest of it and 
being very dedicated to it, for the first time in my life I 
really looked, I really looked at that pile of body parts on 
the side of the table. And I didn't see her wonderful right to 
choose, and I didn't see all the money I just made. All I could 
see was somebody's son or daughter. And I stopped doing late-
term abortions after that and, several months later, stopped 
doing all abortions.
    Mr. Goodlatte. Thank you. The Chair now recognizes the 
gentleman from Michigan for his questions. We have a vote on 
and about 12 minutes remaining. So I think if you wanted to 
proceed, we can get those done.
    Mr. Conyers. Yes, sir. I would like to go forward. Thank 
you.
    And I want to thank all the witnesses, but I have questions 
for Ms. Caroline Fredrickson, please.
    I'm going to quote from our Chairman's memorandum on this 
hearing, quote: ``The Purpose of this hearing will be to hear 
from witnesses on the issues surrounding the alleged acts of 
Planned Parenthood.''
    So, without commenting on its authenticity, does the video 
played by Dr. Levatino earlier have anything whatsoever to do 
with Planned Parenthood?
    Ms. Fredrickson. I don't see the relevance of the video to 
a hearing that's supposed to be focused on Planned Parenthood 
itself and any allegations, unsupported as they may be, of 
wrongdoing. So, no, Mr. Conyers, I don't see how they relate to 
this hearing.
    Mr. Conyers. Now, can you describe the results of the 
independent forensic analysis of the videos released by the 
Center for Medical Progress?
    Ms. Fredrickson. Yes. The independent examination by the 
forensic experts found that the videos were completely 
unreliable because they had been so heavily edited and 
manipulated and that they could not be shown to prove any 
evidence of any type of wrongdoing.
    Mr. Conyers. Now, as you note, Ms. Fredrickson, in your 
testimony, six States--Missouri, Pennsylvania, Georgia, 
Indiana, Massachusetts, and South Dakota--have looked at the 
allegations of wrongdoing at Planned Parenthood affiliates.
    Can you report, to your knowledge, what they have found?
    Ms. Fredrickson. All of them found that there was no basis 
for any finding of any wrongdoing by Planned Parenthood, and so 
those investigations were dismissed.
    Mr. Conyers. Now, what would happen to women if Roe v. Wade 
were overturned, as you know, the landmark case involving a 
woman's right to choose? Would women still choose to end their 
pregnancies? Would those procedures be safer than those 
provided by Planned Parenthood today?
    Ms. Fredrickson. Mr. Conyers, it's true and unfortunate 
that when abortion was illegal in this country, women did seek 
abortions. And, unfortunately, those illegal abortions are 
dangerous and put women's lives in jeopardy, and women do, 
nonetheless, seek out abortions. So it is imperative that 
abortion remain safe and legal in this country.
    Mr. Conyers. Thank you.
    Now, there's some who want to push to defund Planned 
Parenthood. Some have claimed that there are enough other 
clinics to absorb Planned Parenthood's patients if Planned 
Parenthood affiliates are forced to close their doors. Is that 
true?
    Ms. Fredrickson. That has been described as actually 
ludicrous by people, experts in public health who say that 
there is no way that these health centers could fill the gap 
that is provided by Planned Parenthood, which is an anchor for 
women's health care in America and is, in fact, the leading 
health provider of reproductive health care for women.
    Mr. Conyers. Now, I'm just about through. Is there adequate 
capacity in the health care system to absorb all of Planned 
Parenthood's patients?
    Ms. Fredrickson. No. There is clearly no capacity to absorb 
those patients. Those patients would, unfortunately, have their 
needs go unmet. They would be less likely to have family 
planning counseling and access to contraception as well as to 
basic sexually transmitted disease testing and breast exams, 
and as a result, there would be more abortions in this country 
and not fewer.
    Mr. Conyers. Thank you.
    And, finally, what kinds of patients might be particularly 
harmed if those that want to defund Planned Parenthood were 
successful in their effort?
    Ms. Fredrickson. Mr. Conyers, poor women, low-income women 
in this country, women in rural areas would be the ones who 
would suffer most from not having access to the critical 
services that Planned Parenthood provides.
    Mr. Conyers. I thank you very much for your testimony, and 
I thank the Chairman for the time.
    Mr. Goodlatte. There are 6 minutes remaining in this vote. 
So the Committee will stand in recess and reconvene immediately 
after the votes.
    [Recess.]
    Mr. Franks [presiding]. The Committee will now come to 
order.
    And I will recognize the gentleman from Virginia, Mr. 
Forbes, for 5 minutes.
    Mr. Forbes. Mr. Chairman, thank you.
    At the end of the classic movie, ``Casablanca,'' an 
inspector issues an order to round up the usual suspects, and 
every time my friends on the other side of the aisle have a 
horrific act that's done or alleged to be done by one of their 
allies, they issue a similar order to round up the usual 
excuses. We've heard them all here today: Don't believe your 
eyes and your ears and what you hear on the video; look 
somewhere else. And for goodness sake, don't focus on this 
horrific act when you could be focusing on some other horrific 
act that people we don't like might have committed. This is 
just political theater. Somehow or the other, if you are 
sensitive and don't like the fact that an unborn child is torn 
apart limb by limb, you really don't talk about that. You have 
some kind of massive attack on women in general. And don't look 
at the horrific act that this group might have done because, 
after all, they might have done other good acts that weren't 
horrific. And excuses go on and on.
    And the reality is there is simply no point. There's 
nothing that our friends on the other side of the aisle would 
look at this organization and say, we might like you, but 
that's just too far, and we can't condone that.
    And, Mr. Chairman, I would like to now show a video, since 
this seems to be the day of the video. If we could roll that.
    [Video played.]
    Mr. Forbes. Now, Mr. Chairman, we've heard a lot today 
about editing the videos. There's no evidence, Ms. Fredrickson, 
I think that you have it all, that this video has been edited 
or anything has been add to it. So the procedures that were 
discussed in there of crushing an unborn child in more than one 
place--an unborn child, by the way, that has a heart, a lung, 
and a liver that's so well developed that Planned Parenthood 
would want to save the heart, the lung, and the liver, but 
would not want to save the life that created. Just one simple 
question, is that procedure too brutal for you?
    Ms. Fredrickson. Well, sir, I'd like to respond by saying 
that, as you started describing this as political theater, I 
would like to reiterate----
    Mr. Forbes. No, ma'am. You could do what you want if you 
don't want to answer the question, but you are not going to let 
the clock run on me. Yes or no, is it too brutal?
    Ms. Fredrickson. Sir, ultimately, this is an attack on 
women's ability----
    Mr. Forbes. That may be, but I've got 5 minutes. You can 
answer it or not. Do you feel that procedure is too brutal? And 
I understand if you don't want to answer it, but can you say 
whether you feel it's too brutal or not? Yes or no?
    Ms. Fredrickson. Sir, I feel abortion should be safe and 
legal in this procedure.
    Mr. Forbes. Is that procedure too brutal?
    Ms. Fredrickson. I am not a doctor. I can't comment on----
    Mr. Forbes. Okay. Let me ask you this question: If you had 
a small dog, and you had to put that dog to sleep, would you 
think it would be too brutal for the veterinarian to crush that 
dog in two different places?
    Ms. Fredrickson. I trust women and their doctors to 
determine what are the best----
    Mr. Forbes. Let the record show that Ms. Fredrickson would 
not answer the question.
    Dr. Levatino, is that too brutal?
    Dr. Levatino. Every abortion involves the destruction of 
human life. I get frustrated sometimes with the, ``Well, it's 
not a baby; it's a fetus.'' I think we mostly got beyond the 
old blob of cells argument. You know what that is? That's your 
son. That's your daughter. Every abortion results in a dead son 
or daughter.
    I think it's absolutely gruesome. And I thought the example 
you just gave a minute ago is perfect. If I abused a dog in my 
town, I'd be arrested. If I did abortions again, first 
trimester, second trimester, I would be a hero to so many 
people. It's absurd.
    Mr. Forbes. Mr. Chairman, just for the record, you know, 
the point that I think disturbs so many of us is the exact 
response we heard from Ms. Fredrickson. They won't say that any 
procedure is too far or not enough or is too brutal, and that's 
the purpose of these hearings because there's a big difference 
between saying there may not be a law to protect against 
something that may not be illegal and to say there was no 
wrongdoing done because I think what we heard on that tape was 
wrongdoing.
    And, with that, Mr. Chairman, I yield back.
    Mr. Franks. I thank the gentleman.
    And I now recognize Mr. Nadler from New York for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    We've heard a lot today about saving lives. After 23 years 
in Congress, I am still shocked by the hypocrisy we continually 
hear from my friends on the other side of the aisle. Since 
2013, there have been over 900 mass shootings across the 
country, including 300 mass shootings in 2015, an average of 
more than one mass shooting every day this year. 10,128 people 
have been killed this year alone. Americans are 20 times more 
likely to be killed by gun violence than people in any other 
developed country who are not more or less mentally ill than 
people in the United States. Although we have 30 percent of the 
world's population, the U.S. has 90 percent of the world's 
firearm homicides--I think that's 3 percent of the world's 
population.
    How many hearings have my Republican colleagues held on gun 
violence since taking over the House since 2011? None. Since 
Sandy Hook, there have been 142 school shootings, the most 
recent strategy occurring on a community college in Oregon. And 
since the Oregon shooting, 146 people have been killed and 128 
shootings in the United States. Not one hearing, not one vote 
on gun violence.
    For comparison's sake, 2 months ago, an extremist liar 
released a series of heavily edited and probably illegal videos 
filled with lies about Planned Parenthood, an organization that 
has been providing comprehensive compassionate health care to 
women for a century. In the last 30 days, the House has opened 
three official investigations, spent countless hours in 
Committee hearings, and just yesterday voted to establish a 
fourth investigation through a special select Committee. We 
have taken 20 votes this year alone restricting women's access 
to health care. This very hearing is the Committee's second in 
30 days on Planned Parenthood, despite the fact that this 
entire farce is knowingly based on lies.
    If my colleagues had even one shred of evidence that 
Planned Parenthood had broken any laws, they would have gone to 
a State or Federal prosecutor right away. But they didn't, and 
they don't. Perhaps that's why one of my Republican colleagues 
Mr. Chaffetz announced on TV just last week that there's no 
evidence that Planned Parenthood has broken any laws. Imagine 
how many lives we could save if my colleagues devoted even one 
half of that attention to stopping the epidemic, and it is an 
epidemic, of gun violence in this country. My colleagues will 
claim that we cannot possibly take any action on gun violence 
because the right to own a gun is protected by the 
Constitution. It's a very funny argument coming from the other 
side in light of this shameful hearing. You know what else is 
protected by the Constitution, a women's right to access 
abortion and to make her own choices about her health care and 
whether to get an abortion. Yet the same colleagues who refuse 
to take any action on gun violence have no problem tossing the 
Constitution out the window to impose their own moral opinions 
on all American women.
    Measures passed at the State and local level put 
unbelievable restrictions on a woman's right to access an 
abortion. Women must endure invasive tests and exams, wait 48 
hours before they can undergo the procedure, take time off from 
work to visit the one facility in the State where abortion is 
still available, and endure endless badgering and even assault 
from protesters any time they try to enter a clinic they have a 
constitutional right to enter. They must face regular shaming 
from the Republicans on this Committee--almost all men, I may 
add--for making the choice to exercise their constitutional 
rights.
    Yet there are no such restrictions for acquiring a gun. You 
can walk into a gun show at noon and walk out 15 minutes later 
with a high-capacity magazine and a semiautomatic rifle in your 
hands. No background check, no ID, no way of making sure the 
gun purchase is going to someone with the proper safety 
training and with no history of domestic violence. Imagine if 
we made people jump through the same hoops to buy a firearm as 
they do for having an abortion. Imagine the invasive questions 
about why are you getting the gun and whether or not you 
considered all your options? Imagine the only way to get a gun 
was to prove through a police report that you have been raped 
or assaulted in the past or have a lawyer certify that your 
life is in imminent physical danger unless you get a gun. Think 
about being shamed and shouted at and forced to look at graphic 
images of gun violence as you walk into a gun shop.
    That outrage you feel, that nagging feeling that the 
government has no right to put any restrictions on your 
constitutional rights: that is what a woman feels every time 
she tries to make a decision about her health and about whether 
or not to access her constitutional rights to an abortion. 
Until this Committee is ready to face the real crisis of gun 
violence in our country to take a firm stand that enough is 
enough and it's time for real action, these proceedings will 
remain a hypocritical farce.
    Ms. Fredrickson, are you aware that the Center for Medical 
Progress obtained its nonprofit status from the IRS by 
representing itself as a nonprofit based on biomedical research 
and that they did not indicate their political activities in 
their application. And is this a fraud? Is this illegal to 
provide false information to the IRS?
    Ms. Fredrickson. Mr. Nadler, yes, to your first question.
    They did, indeed, make that application, and I do believe 
it is a fraud and illegal.
    Mr. Nadler. Thank you. My last question is, at the moment 
three House committees and one Senate committee on 
investigating Planned Parenthood. The majority is proposing 
using taxpayer dollars to establish a select panel that would 
launch its own fifth investigation.
    What do you make of the fact that the majority has 
committed these resources to attacking Planned Parenthood and 
almost none to investigating alleged illegal activity at the 
Center for Medical Progress?
    Ms. Fredrickson. Well, I think it indicates that the true 
agenda here is to undermine women's right to make personal 
decisions in consultation with her doctor and her family and 
exercise her constitutional rights to choose her own health 
care.
    Mr. Nadler. As do the testimony of three witnesses who have 
nothing to say about Planned Parenthood but have to say about 
abortion generally.
    Thank you very much. I yield back.
    Mr. Franks. I now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses 
for your testimony here today. And I was just listening to the 
gentleman from New York about the same hoops to buy a firearm 
as there is to get an abortion. I suggest, instead, in this 
city, for example, it's probably much easier to get an abortion 
than it is to buy a gun or to possess one or to transport one. 
And that's true also in many States, including Chicago, for 
example, where we've seen a lot of deaths and desecration that 
comes from violence there that doesn't seem to be troubling the 
minority party either.
    But I'm looking through your testimony, Ms. Fredrickson, 
and I notice there that in your testimony you say that you list 
the numbers of lifesaving breast exams, the number of women 
whose cancer was detected early, 500,000 exams, 88,000 women 
whose cancer was detected earlier, very likely did save lives 
in doing that. I didn't notice--oh, and also that it had 
prevented an estimated 516,000 unintended pregnancies and 
217,000 abortions every year. I haven't seen Planned Parenthood 
produce a number that actually took credit for the number of 
abortions prevented--excuse me, the number--yeah, the number of 
abortions prevented, neither did I see in this testimony the 
number of abortions that Planned Parenthood does in a normal 
year. Could you tell me what that number would be?
    Ms. Fredrickson. I believe the number is about 350,000 per 
year.
    Mr. King. What would the typical price be for a typical 
abortion?
    Ms. Fredrickson. I do not know. I do not work for Planned 
Parenthood.
    Mr. King. And could I just then, state, I will, off their 
Web site, $1,500. And when I punch that through my calculator, 
it was 340,000 was the number I used, rather than 350, but 
we're in the ballpark, and at $1,500 each, that turned out to 
be $510 million. And $510 million happens to be very close to 
identical to the exact number of the appropriations that would 
go into Planned Parenthood should the appropriations go 
forward, which it has out of this House at least for a couple 
of months. And it's hard for me to accept the idea that this is 
a nonprofit organization.
    And I would turn to Ms. Thayer. Your testimony spoke to 
that. Seeing those kind of numbers, Ms. Thayer, could you be 
convinced that Planned Parenthood is nonprofit?
    Ms. Thayer. Officially, Planned Parenthood is a nonprofit, 
but their main concern is really their bottom line. We would 
have monthly managers' meetings via the very Web cam system 
that they installed to do the abortions. And on a spreadsheet, 
they would have our goals, our quotas, for every single service 
and supply that we had. If we met our goal, that square would 
be green. If we were 5 percent below, it would be yellow. And 
if we were 10 percent below our quota, it would be red, and we 
would have to have a corrective action plan on how to correct 
that.
    And abortion was one of those items. If we didn't do 
abortions at that center, then we had a goal for abortion 
referrals.
    Mr. King. Could you say clearly here in your testimony with 
confidence that in your years working for Planned Parenthood 
that even though Planned Parenthood has filed as a nonprofit, 
that they are profit driven?
    Ms. Thayer. Well, they are all about the profit. For 
example, they purchase birth control pills for $2.98 a cycle, 
bill the Iowa taxpayers $35 a cycle, are reimbursed a little 
over $26, and then they solicit from the very women that Ms. 
Fredrickson referred to as very low income, at or below poverty 
level, a $10 donation per cycle for each pill that goes out, 
each cycle of pills.
    Mr. King. That's clearly a distinct profit that most 
businesses would like to see in their margins.
    I would like to turn, again, to Ms. Fredrickson. And I 
recall in your testimony you talk about the gap that would be 
created if we didn't fund Planned Parenthood. And would you say 
that there's no way to fill the gap of services that you 
testified, that there's not a way to fill that gap some other 
way?
    Ms. Fredrickson. I think we already have evidence that it 
is nearly impossible, if not impossible, to fill that gap. The 
example from Texas, and even in Louisiana, where they have 
tried to cut back on Planned Parenthood services and found that 
they could simply not serve the population that needed those 
services.
    Mr. King. Tell me, if you would, how did Planned Parenthood 
grow into this, ``service,'' and into this gap that can't be 
created another way? Are you submitting then that free 
enterprise and demand and transportation and funding and 
resources wouldn't grow another entity or two or three or four 
or five that would fill the same demand that you're saying that 
Planned Parenthood only can fill?
    Ms. Fredrickson. With all due respect, sir, we're talking 
about Medicaid patients that primarily get those services. So, 
no, I don't think that they can be filled by the free 
enterprise system.
    Mr. King. What do you think would happen?
    Ms. Fredrickson. Well, unfortunately, I think we would have 
more unintended pregnancy and ultimately, unfortunately, more 
abortions.
    Mr. King. I just suspect that the witness hasn't considered 
how this comes together, how free enterprise moves and accepts 
Medicaid checks, et cetera, how the clinic system works, how 
the healthcare providers are able to take a look at the 
marketplace and supply a demand. And I suggest that that would 
be supplied without any great concern, and I would yield back.
    Mr. Franks. Well, I thank the gentleman.
    And I'll recognize myself now for 5 minutes for questions--
forgive me.
    I'll recognize now Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Let me thank you very much, all of the 
witnesses. Whenever we have witnesses come, it's appropriate 
for Members of Congress to thank you because we know the 
sacrifice that you make to come.
    Let me also say that this is the Judiciary Committee, and 
it is important for us to do fact finding but also to maintain 
and adhere to current stated statutory or court law that has 
set precedents for the actions that may be in place now. 
Obviously, as legislators, we have the right to make 
determinations.
    Let me also say that I respect and appreciate the 
differences of opinion that are in this room and among those in 
this audience and on the panel as well.
    I'm interested in the truth, but I am one who has known 
people and have lived through the back-alley abortions and seen 
so many people suffer and die because of choices that they 
intelligently wanted to make, desperately had to make, and did 
not have the adequate medical care consultation that was 
needed.
    Let me thank you, doctor. Any time I see a doctor, I want 
to thank you for taking the oath and recognizing the need for 
good care. But I do want to go back to what this hearing is all 
about.
    Are you representing--understanding you are under oath, are 
you representing that the video that you showed was a Planned 
Parenthood video?
    Dr. Levatino. No, ma'am, I am not. The reason I brought 
that video forward, however----
    Ms. Jackson Lee. I have a short period of time.
    Dr. Levatino. Go ahead, ma'am.
    Ms. Jackson Lee. So you are not--that is not a Planned 
Parenthood video?
    Dr. Levatino. That is not a Planned Parenthood video.
    Ms. Jackson Lee. And I want to make clear that the hearing 
is ``Planned Parenthood Exposed: Examining Abortion Procedures 
and Medical Ethics at the Nation's Largest Abortion Provider.''
    Ms. Thayer. I'm sorry.
    Ms. Thayer. That's okay.
    Ms. Jackson Lee. Let me pronounce it correctly. Are you a 
lawyer?
    Ms. Thayer. No, ma'am.
    Ms. Jackson Lee. Are you trained in nonprofit law?
    Ms. Thayer. No, ma'am.
    Ms. Jackson Lee. Would you then have a legal understanding 
of the rights and responsibilities of a nonprofit and what they 
are allowed to do?
    Ms. Thayer. Well, I ran a nonprofit for almost 18 years.
    Ms. Jackson Lee. But are you a lawyer that understands the 
law of nonprofits, 501(c)(3)?
    Ms. Thayer. No, but I did have an understanding that----
    Ms. Jackson Lee. But not from a legal perspective? So you 
would not be able to discern the appropriate response to 
Federal funding being used for Medicaid healthcare matters 
versus things that you have now become opposed to, which is 
your right to do? Not from a legal perspective.
    Ms. Thayer. One my biggest concerns was why they were 
soliciting donations, requiring donations from Medicaid-
eligible women, and I knew that that wasn't right.
    Ms. Jackson Lee. Well, is that something that you are 
submitting into the record? Do you have some statements from 
the Medicaid women that were solicited?
    Ms. Thayer. I did that every day that I worked there. Their 
pills are $35. The donation is $10; will it be cash or credit?
    Ms. Jackson Lee. Well, were you able to discern by the 
understanding of the bylaws of Planned Parenthood just what 
those requests might be? They have every right to engage--I'm 
not saying it's true--in a voluntary perspective. Let me move--
in a voluntary request that someone voluntarily may desire to 
do.
    But let me go to Ms. Fredrickson and set the tone for this 
particular hearing.
    It has been said by Congressman Chaffetz, the Chairman of 
the Oversight Committee, among many hearings that Planned 
Parenthood did, if I might quote correctly from the hearing, 
``violated no law.'' Is Roe v. Wade the law of the land?
    Ms. Fredrickson. Yes, it is.
    Ms. Jackson Lee. Is that the right for women to choose?
    Ms. Fredrickson. Yes. That provides----
    Ms. Jackson Lee. It's no billboard pronouncement that we 
are promoting abortions. Is that the case? The law simply is on 
the Ninth Amendment, the right to privacy?
    Ms. Fredrickson. Under the Constitution, women have the 
right to make those personal decisions.
    Ms. Jackson Lee. Not an advertisement and billboard for 
abortion; it is a right to privacy under the Ninth Amendment?
    Ms. Fredrickson. Yes.
    Ms. Jackson Lee. Let me also say that the political agenda 
that has been framed, many of you have seen, I'm not going to 
ask you that question, but I'd like to focus on your 
understanding, Ms. Fredrickson, of what Planned Parenthood 
does. Do they legitimately have health care for women?
    Ms. Fredrickson. Planned Parenthood is our Nation's leading 
provider for reproductive health care for women. They provide a 
critical service. One in five American women go to a Planned 
Parenthood clinic in their lifetime.
    Ms. Jackson Lee. Let me pursue another line of questioning. 
In order to make sure that we know that we have--Planned 
Parenthood, excuse me, has a medical structure, as I understand 
it, abortion care is included in medical training, clinical 
practice, and continued medical education. Studies show 
abortion has 99 percent safe record, but more importantly, the 
57,000 members of the American Congress of Obstetricians and 
Gynecologists maintains the highest standards of clinical 
practice have indicated that that is the case, and that there's 
misinformation about how abortions today are handled versus, 
remember what I said, back alley and coat hanger. Are you 
familiar with that contrast of what women went through, what I 
say, 20, 30 years ago versus what they doing today?
    Ms. Fredrickson. Yes. I understand that before Roe v. Wade, 
many women died in back-alley abortions, and that it's a 
tremendous advance in this country to have safe and legal 
abortions available for women.
    Ms. Jackson Lee. Let me add the Fourth Amendment to my line 
of reasoning as well.
    But let me just ask this question as I close: On this 
video, are you familiar with the name Mr.--I'm sorry. His name 
is Mr. Daleiden?
    Ms. Fredrickson. From the videos, yes.
    Ms. Jackson Lee. Yes. Do you realize that he has not 
publicly released the entire unedited video?
    Ms. Fredrickson. So I understand that no Member of this 
Committee has seen the entire unedited videos, yes.
    Ms. Jackson Lee. Do you realize that Mr. Daleiden has taken 
the Fifth Amendment, meaning not willing to come before any 
Committee?
    Ms. Fredrickson. Yes.
    Ms. Jackson Lee. And do you also understand that he stole 
the ID of a fellow classmate in high school who happened to be 
a feminist in order to portray the distorted political and 
biassed video?
    Ms. Fredrickson. Yes, I understand that is the case.
    Ms. Jackson Lee. If we are here--and I close Mr. Chairman, 
and I thank you for this. If we are here to find the facts, is 
it not factual that through all of the hearings we've not heard 
of any statement about Planned Parenthood in essence violating 
the law, Roe v. Wade, constitutional amendments, and the Bill 
of Rights? Have you heard that, Ms. Fredrickson?
    Ms. Fredrickson. No, no one has been able to substantiate 
any allegation of wrongdoing against Planned Parenthood, and 
indeed, Mr. Chaffetz has agreed that there is no wrongdoing.
    Mr. Franks. The gentlelady time has expired.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I yield back.
    Mr. Cicilline. Mr. Chairman, a point of parliamentary 
inquiry?
    Mr. Franks. State your point.
    Mr. Cicilline. Mr. Chairman, I would like to know what the 
proper procedure would be. I think this witness has just 
testified--this hearing is entitled, ``Planned Parenthood 
Exposed: Examining Abortion Practices and Medical Ethics at the 
Nation's Largest Abortion Provider.'' This witness played a 
tape that he has now admitted under oath was not prepared in 
connection with Planned Parenthood at all, and so I would ask 
that it be stricken from the record of this hearing.
    Mr. Franks. The Chair is the judge of relevancy here, and 
the gentleman never had suggested anything to the contrary.
    Mr. Cicilline. Well, Mr. Chairman, it was presented to a 
Committee having a hearing on Planned Parenthood with the clear 
implication that it was relevant to the hearing. It's not. I'd 
ask--I make a motion to strike it from the record.
    Mr. Franks. Well, would you also include in your motion the 
gentleman from New York's testimony on gun control? Is that 
relevant to Planned Parenthood?
    Mr. Cicilline. My motion is on the recording that Dr. 
Levatino presented that he admitted has nothing to do with 
Planned Parenthood. I've made a motion, Mr. Chairman.
    Mr. Franks. Well, Mr. Nadler made his motion about--I mean 
his comments about guns almost entirely----
    Mr. Cicilline. Mr. Chairman, point of order. I've made a 
motion that that be stricken from the record of this hearing as 
irrelevant to a hearing on Planned Parenthood, and I'd ask for 
a vote on my request.
    Mr. Johnson. I'll second the motion.
    Mr. Franks. All those in favor, say aye.
    Mr. Cicilline. Aye.
    Mr. Franks. Would the gentleman restate his motion?
    Mr. Cicilline. The motion is to strike from the record the 
video of Dr. Levatino, which was not prepared or generated in 
connection with any service by Planned Parenthood.
    Mr. King. Mr. Chairman----
    Mr. Cicilline. Mr. Chairman, there's already been a vote.
    Mr. King [continuing]. Reserving my right to object, there 
was a unanimous consent request to enter the information into 
the record. The gentleman had his opportunity to object at the 
time the information was----
    Mr. Cicilline. No, that is not true.
    Mr. King [continuing]. Entered into the record. And I 
object to his motion as being out of order.
    Mr. Cicilline. That is not correct. It was not a unanimous 
consent. It was----
    Mr. King. I have the floor.
    Mr. Franks. All those in favor, say aye.
    All those in favor, say aye.
    Mr. Cicilline. Of my motion? Aye.
    Mr. Franks. All those opposed?
    The noes have it.
    Mr. Cicilline. I ask for a recorded vote.
    Mr. Franks. Okay.
    Ms. Cicilline. I ask for a recorded vote.
    Mr. Franks. Recorded vote has been--I wonder if we are 
going to be able to strike that video from your memory.
    Mr. Cicilline. All I'm asking is that it be stricken from 
the record of this hearing. It ought to have some relevance 
before people bring in a video which has nothing to do with the 
subject matter at hand.
    Mr. Johnson. I ask for a recorded vote, Mr. Chairman.
    Mr. Franks. Recorded vote has been asked.
    The clerk will call the roll.
    Mr. Nadler. Mr. Chairman, regular order. Could the clerk 
call the roll? Mr. Chairman.
    Ms. Williams. Mr. Goodlatte?
    [No response.]
    Ms. Williams. Mr. Sensenbrenner?
    [No response.]
    Ms. Williams. Mr. Smith?
    [No response.]
    Ms. Williams. Mr. Chabot?
    [No response.]
    Ms. Williams. Mr. Issa?
    [No response.]
    Ms. Williams. Mr. Forbes?
    [No response.]
    Ms. Williams. Mr. King?
    Mr. King. No.
    Ms. Williams. Mr. King votes no.
    Mr. Franks?
    Mr. Franks. No.
    Ms. Williams. Mr. Franks votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Williams. Mr. Gohmert votes no.
    Mr. Jordan?
    [No response.]
    Ms. Williams. Mr. Poe?
    [No response.]
    Ms. Williams. Mr. Chaffetz?
    [No response.]
    Ms. Williams. Mr. Marino?
    [No response.]
    Ms. Williams. Mr. Gowdy?
    [No response.]
    Ms. Williams. Mr. Labrador?
    [No response.]
    Ms. Williams. Mr. Farenthold?
    [No response.]
    Ms. Williams. Mr. Collins?
    [No response.]
    Ms. Williams. Mr. DeSantis?
    [No response.]
    Ms. Williams. Ms. Walters?
    [No response.]
    Ms. Williams. Mr. Buck?
    [No response.]
    Ms. Williams. Mr. Ratcliffe?
    [No response.]
    Ms. Williams. Mr. Trott?
    [No response.]
    Ms. Williams. Mr. Bishop?
    [No response.]
    Ms. Williams. Mr. Conyers?
    [No response.]
    Ms. Williams. Mr. Nadler?
    Mr. Nadler. Aye.
    Ms. Williams. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Williams. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Williams. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Williams. Mr. Cohen votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Williams. Mr. Johnson votes aye.
    Mr. Pierluisi?
    [No response.]
    Ms. Williams. Ms. Chu?
    [No response.]
    Ms. Williams. Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Williams. Mr. Deutch votes aye.
    Mr. Gutierrez?
    Mr. Gutierrez. Aye.
    Ms. Williams. Mr. Gutierrez votes aye.
    Ms. Bass?
    [No response.]
    Ms. Williams. Mr. Richmond?
    [No response.]
    Ms. Williams. Ms. DelBene?
    Ms. DelBene. Aye.
    Ms. Williams. Ms. DelBene votes aye.
    Mr. Jeffries?
    [No response.]
    Ms. Williams. Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Williams. Mr. Cicilline votes aye.
    Mr. Peters?
    [No response.]
    Mr. Franks. Mr. Chaffetz?
    Mr. Chaffetz. No.
    Ms. Williams. Mr. Chaffetz votes no.
    Mr. Franks. Gentleman from Virginia?
    Mr. Forbes. No.
    Ms. Williams. Mr. Forbes votes no.
    Mr. Nadler. That's the recorded vote.
    Regular order results, please.
    Mr. Labrador. Mr. Chairman.
    Mr. Franks. Mr. Labrador?
    Mr. Labrador. No.
    Ms. Williams. Mr. Labrador votes no.
    Mr. Nadler. Regular order. Could we have the results of the 
vote, Mr. Chairman?
    Mr. Forbes. Mr. Chairman.
    Mr. Franks. The clerk will now----
    Mr. Forbes. Mr. Chairman.
    Mr. Franks [continuing]. Report the vote.
    Mr. Forbes.
    Mr. Forbes. Parliamentary inquiry, Mr. Chairman.
    Mr. Franks. State your inquiry.
    Mr. Forbes. Mr. Chairman, as I understand, this is a motion 
to----
    Mr. Nadler. Point of order. When we are in the middle of a 
roll call vote, you can't have a parliamentary inquiry.
    Mr. Forbes. I'll ask a ruling from the Chair and take time 
to ask for the Parliamentarian.
    Mr. Nadler. Let's report the vote.
    Mr. Gutierrez. Report the vote.
    Mr. Forbes. The Chairman can consider that.
    Mr. Franks. State your inquiry.
    Mr. Forbes. Mr. Chairman, I just wanted to ask if this was 
a motion to strike testimony of a witness or a video, and if we 
had such a motion because I don't recall ever having one in 
this Committee where we were striking testimony of witnesses 
that had been made in here.
    Mr. Franks. As I understand, Mr. Forbes, the minority is 
asking to strike the video, which, of course, was given to them 
days ago and is not a surprise to them in any way.
    Is that correct?
    Mr. Nadler. It was given to us yesterday morning.
    Mr. Cicilline. That's the motion, yes.
    Mr. Gutierrez. Regular order.
    Mr. Nadler. Regular order. Can we have the vote results?
    Mr. Forbes. Mr. Chairman, this is regular order to have a 
parliamentary inquiry--
    Mr. Franks. Will the gentleman state his order?
    Mr. Forbes. Yes, sir, Mr. Chairman. I'll wait until they be 
quiet, then I'll state my parliamentary procedure once they 
have gotten quiet.
    Mr. Gutierrez. Come on.
    Mr. Forbes. Okay. They are finally quiet.
    Mr. Chairman, have we had a procedure before under our 
parliamentary rules to strike evidence of a witness because I 
don't ever remember one taking place in this Committee?
    Mr. Franks. I'm told not in this Committee.
    Mr. Forbes. Okay. All right.
    Mr. Franks. Please announce the vote.
    Ms. Williams. Mr. Chairman----
    Mr. Chabot. One last thing, Mr. Chairman.
    Mr. Franks. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Williams. Mr. Chabot votes no.
    Mr. Chairman, nine Members voted aye; seven Members voted 
no.
    [The rollcall vote follows:]

    1.  Motion to strike video played by Dr. Levatino from 
record.<greek-l>

             L2(0,4,10,5,4,3),tp9,p8,8/9,g1,t1,s30,4C,4C,4C
                               ROLLCALL NO. 1
------------------------------------------------------------------------
                                            Ayes        Nays     Present
------------------------------------------------------------------------
Mr. Goodlatte (VA), Chairman...........
Mr. Sensenbrenner, Jr. (WI)............
Mr. Smith (TX).........................
Mr. Chabot (OH)........................                      X
Mr. Issa (CA)..........................
Mr. Forbes (VA)........................                      X
Mr. King (IA)..........................                      X
Mr. Franks (AZ)........................                      X
Mr. Gohmert (TX).......................                      X
Mr. Jordan (OH)........................
Mr. Poe (TX)...........................
Mr. Chaffetz (UT)......................                      X
Mr. Marino (PA)........................
Mr. Gowdy (SC).........................
Mr. Labrador (ID)......................                      X
Mr. Farenthold (TX)....................
Mr. Collins (GA).......................
Mr. DeSantis (FL)......................
Ms. Walters (CA).......................
Mr. Buck (CO)..........................
Mr. Ratcliffe (TX).....................
Mr. Trott (MI).........................
Mr. Bishop (MI)........................
 
Mr. Conyers, Jr. (MI), Ranking Member..
Mr. Nadler (NY)........................          X
Ms. Lofgren (CA).......................          X
Ms. Jackson Lee (TX)...................          X
Mr. Cohen (TN).........................          X
Mr. Johnson (GA).......................          X
Mr. Pierluisi (PR).....................
Ms. Chu (CA)...........................
Mr. Deutch (FL)........................          X
Mr. Gutierrez (IL).....................          X
Ms. Bass (CA)..........................
Mr. Richmond (LA)......................
Ms. DelBene (WA).......................          X
Mr. Jeffries (NY)......................
Mr. Cicilline (RI).....................          X
Mr. Peters (CA)........................
                                        --------------------------------
    Total..............................          9           7
------------------------------------------------------------------------


    Mr. Franks. And the motion is agreed to.
    I will now recognize myself for 5 minutes for questions.
    You know, one of the hallmarks of humanity throughout 
history is our astonishing proclivity as human beings to 
obscure, rationalize away an incontrovertible truth in our own 
minds or before others to achieve some solidarity or temporary 
acceptance with our own insular peer group. It's always 
astonished me to what lengths we go on this issue. And I think 
I know why, because we never really ask this central question. 
And the central question is: Does abortion kill a little baby? 
If abortion doesn't kill a little baby, then I'm here to pretty 
much suggest that we shouldn't be having such a hearing or 
anything like that. But if abortion really does kill a little 
baby, then those of us seated in the greatest Nation in the 
history of the world, the land of the free, home of the brave, 
are sitting in the midst of the greatest human genocide in the 
history of humanity. And the victims are the most helpless of 
all children.
    We recently had a vote in the House of Representatives to 
protect born-alive children. There was not one person to my 
left that voted for that bill, born-alive children. And I would 
just suggest that if we've come to the moment in America where 
we no longer are willing to protect born-alive children, then 
it is time to reassess who we are and whether or not the 
Founding Fathers' dreams still has any place in our society.
    Mr. Levatino, if a child is born alive during an abortion 
procedure, a doctor has an ethical duty to save that child, 
correct?
    Dr. Levatino. He does. He has an ethical duty to provide 
care, whether it's lifesaving or palliative.
    Mr. Franks. Well, the president of Planned Parenthood, 
Cecile Richards, has said in testimony that she had never heard 
of such a circumstance happening in Planned Parenthood clinics. 
Do you believe that among the hundreds of thousands of 
abortions Planned Parenthood commits every year that there are, 
in fact, children born alive but die because they do not 
receive appropriate care?
    Dr. Levatino. I can't speak specifically from experience 
regarding Planned Parenthood in that regard. The reason I 
introduced the video was because Planned Parenthood has stated, 
and we understand that they do, perform late-term abortions. It 
has been stated, I believe by Ms. Richards, that they perform 
late-term abortions, ``up to viability,'' but that was never 
defined. So if you are going to be talking about late-term 
abortions in terms of Planned Parenthood, you need to know what 
the techniques are. That's why I introduced the testimony that 
I did.
    Mr. Franks. Well, based on your experience, what is your 
assessment of how low-income women's health care could be met 
without Planned Parenthood?
    Dr. Levatino. With all respect to Ms. Fredrickson, her 
assertion and backing it up with statements from other people 
that it is ``ludicrous,'' were her words, that other providers 
could adequately take on Planned Parenthood patients is--the 
statement itself is ludicrous.
    It's interesting, if you want to learn about low-income 
women and health care, you should come to southern New Mexico, 
where I've worked for over 13 years. This map, the Planned 
Parenthood facilities in New Mexico are in Albuquerque, Santa 
Fe, and Farmington, the three richest areas in the State. There 
isn't a single Planned Parenthood south of Bernalillo County in 
New Mexico, and there hasn't been for over a decade, the very 
area that I worked.
    Dona Ana County, where I work, is one of the poorest 
counties in the country. And if you want to understand about 
indigent care, then come to Dona Ana County, please.
    Ms. Richardson has talked specifically about the health 
care that Planned Parenthood provides, specifically, family 
planning counseling and contraception, pregnancy test, Pap 
smears, and breast exams--and oh, STD testing, which she did 
not mention in her testimony but was in her written testimony. 
Those are the services they provide. Let me tell you something, 
the poor people in my area get contraceptive counseling, Pap 
smears, breast exams, and truly comprehensive health care from 
our healthcare clinics.
    You've heard--this Committee has heard, I know, that there 
are over 13,000 healthcare clinics across the country. Look at 
my map again. This is covering in New Mexico in terms of those 
very same health clinics. And unlike Planned Parenthood, they 
are not a 9-to-5 business, Monday through Friday. They are 
there 24 hours a day to serve their women. And their women get 
taken care of not only if they need just Pap smears or breast 
exams; they get taken care of if they have a headache or nausea 
or a stroke or a heart attack or all the other things that 
happen. That's what we call comprehensive health care, and 
that's what is available at these clinics.
    Five hundred million dollars. As a doctor, I would give you 
my opinion that $500 million poured into Planned Parenthood 
would be far better served--those women across the country 
would be far better served if that money was put into community 
health centers where women could get truly comprehensive care, 
not just Pap smears and breast exams.
    Mr. Franks. I thank the gentleman.
    Now I would recognize, I believe, Mr. Cohen from Tennessee 
for 5 minutes.
    Mr. Cohen. Thank you, sir.
    Mr. Franks. Ms. Lofgren. Forgive me.
    Ms. Lofgren. Thank you, Mr. Chairman.
    This hearing is disappointing in so many ways. It's really 
hard to begin, but let me just say that it is a myth to think 
that if we were able to defund Planned Parenthood, which I 
think, legally, we couldn't do, I mean, that there is the 
capacity to provide the medical services to the women who are 
being served. And the last time that we had a hearing in this 
Committee on this same subject, I put a letter into the record 
of that hearing from the California nonprofit clinics saying 
they do not have the capacity to pick up the caseload of 
Planned Parenthood. Just, flat out, they could not do it.
    There has been a lot of discussion about abortion here 
today. And abortion is a very emotional subject for people in 
this country, and I think that is why we've ended up in the 
situation we have, which is there is no Federal funding for 
abortion. There is no Federal funding for abortion. And so if 
the effort to cut off funding from Planned Parenthood would 
succeed, we would cut off contraception, but we would not cut 
off abortion, which is an absurd result, I must say.
    You know, I have known women who have had abortions, and 
I've never met a woman who felt happy about it. This is not a 
festive occasion. It's a situation where women find themselves, 
and they make a choice instead of the government telling them 
what to do. I think of the daughter-in-law of a dear friend of 
mine who had an abortion late in her pregnancy when she found 
out that the much-wanted child she was carrying had--all of her 
brains had formed outside of the cranium. This child was not 
going to live, and she and her husband were devastated. But she 
was told by her physician that if she carried this child to 
term, not only would the child die, but she might die, and, 
certainly, she would never have the chance of having another 
child.
    We think about the women all over the country who struggle 
with this decision and make a decision, but one of the 
important things is to provide for contraception so that women 
don't have to be faced with that terrible decision. And I do 
think that one of the most important things that Planned 
Parenthood does is to provide birth control to women who want 
to control their own fertility. And if we were to cut off 
funding for Planned Parenthood, that would not be available to 
the women--many women--who live in my community in San Jose and 
in Gilroy. That would just not be available, and I think that 
would be a very wrong thing.
    Now, I think there has been a lot of dirt in the air about 
the Planned Parenthood as an institution. I'll just say that 
Planned Parenthood in San Jose is a well-respected 
organization. I know thousands of women who have told me how 
much they rely on Planned Parenthood, not only for Pap smears 
and for birth control and for cancer screenings, but they even 
do some pediatric care. I mean, they're full service, and it's 
a really important institution and a well-trusted institution 
in my district. And that's what I hear from families and from 
women back home.
    Now, this is in contrast to some of the things that have 
been said here in Washington. You know, earlier in the 
Oversight and Government Reform Committee, there was a chart 
indicating that Planned Parenthood performed more abortions 
than lifesaving procedures in 2013.
    I wonder, Ms. Fredrickson. Did you look at that chart? Did 
you see the hearing?
    Ms. Fredrickson. No, I didn't see that chart.
    Ms. Lofgren. Okay. I don't think that that's an accurate 
chart, and, in fact, I think it's since been proven that that 
is not correct.
    Let me ask you about--we've had all these hearings about 
Planned Parenthood. There's not been any evidence that Planned 
Parenthood has violated the law in any way.
    Are you aware of any hearings that have been held about 
this CMP group, about whether they filed false tax returns, 
whether they were operating in compliance with the law?
    Ms. Fredrickson. So far, I don't believe there have been 
any congressional inquiries. I do believe there is a court case 
proceeding, however.
    Ms. Lofgren. Yes, I know that our attorney general in 
California is looking into it since they incorporated there.
    I'll just close, Mr. Chairman, by saying that I hope that 
this is the end of the persecution of Planned Parenthood. It is 
important, the service they provide for the women of America, 
and I hope that we will stop trying to smear this wonderful 
institution.
    I yield back.
    Mr. Goodlatte [presiding]. The gentleman from Virginia, Mr. 
Forbes, is recognized.
    Mr. Forbes. Mr. Chairman, I make a motion that the video 
that's part of Mr. Levatino's testimony, that was previously 
stricken from the record, be made part of the record.
    Mr. Goodlatte. All those in favor of the motion, respond by 
saying aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it.
    And the video is made a part of the record.
    I thank the gentleman, and the gentleman is now recognized 
for his questions.
    Oh, who's next?
    The gentlewoman from California, Ms. Walters, is recognized 
for 5 minutes.
    You're next. Do you want to pass or do you----
    Ms. Walters. I pass.
    Mr. Goodlatte. Okay.
    The gentleman from Ohio, Mr. Chabot, is recognized for his 
questions.
    Mr. Chabot. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing.
    And the gentlelady from California, who I have great 
respect for, indicated that this hearing is disappointing, and 
it is, certainly, disappointing that we have to hold a hearing 
like this about an organization that every year brutally kills 
hundreds of thousands of unborn, innocent babies and sells 
their body parts and does that for profit.
    I happen to represent most of the city of Cincinnati, and 
Planned Parenthood does approximately 330,000 abortions. It's 
the largest abortion provider in this country. They basically 
wipe out the population of the city of Cincinnati every year. 
It's about 300,000 people in that particular community, and 
it's just--so it is very disappointing that we have to have a 
hearing like this and hear the testimony.
    Ms. Fredrickson, you earlier said that--I think your 
comment about Mr. Chaffetz, saying something along the lines 
of, ``Well, it isn't against the law,'' and if that's the case, 
what--the organization that you're here testifying on their 
behalf today--if it's accurate that what you're doing--
destroying little, innocent, unborn lives and selling their 
body parts for profit--if that's not against the law, then we 
damn well better change the law and make it against the law 
because we're supposed to be a civilized society and a 
civilized country. And to think that that kind of behavior is 
occurring in these modern times, it makes one wonder what the 
hell's going on in this country. It's disgusting.
    And when I saw these videos--and I know the excuse is, 
``Oh, well. We didn't know we were being taped,'' I mean, what 
a defense. ``We didn't know that somebody might actually find 
out what's going on in the Planned Parenthood facilities all 
over the country, that it might get out what's going on.'' I 
mean, that's a heck of a defense, and some of the people that 
are here--and all three of the other witnesses in particular--I 
think it takes a lot of courage, you know, to experience some 
of the things that you've experienced over the years and to be 
willing to come here and testify about what has happened. And 
thank God that you are willing to do that, and all three, all 
the stories.
    And, Dr. Levatino, I heard you testify in this Committee in 
the past, and, you know, thank you for coming forward and doing 
what you're doing now to expose what has occurred.
    I guess--and I've probably used up a lot of my time 
already, but, doctor, I guess, if you could again--and I know 
you've already said it, but I think it bears hearing it a 
second time, that--you know, in your past, obviously, you did 
perform abortions and then at some point in your life decided 
that ``I'm not going to do that anymore.''
    Could you share again what it was that made that change for 
you?
    Dr. Levatino. Because, Congressman, it was the loss of my 
own adopted daughter that made me look very seriously at what I 
was doing with abortions.
    Mr. Chabot. Thank you. Thank you.
    Ms. Stoltenberg, you indicated that you've--and I know 
you've got a whole bunch of other women that were in your 
circumstances, that their lives have been changed. Would you 
want to share some of the stories of other women? You don't 
necessarily have to give their names but what you have heard 
from others and how this has affected their lives so that--
there's actually two victims here. There's the unborn child, 
and there's also the woman, who's been a victim oftentimes, in 
a Planned Parenthood facility since they're the largest 
abortion provider.
    But could you share, in the brief time that I have left, 
anything you'd like to say about the other women you've talked 
to over the years about that?
    Ms. Stoltenberg. I would, sir.
    I've heard a lot here today about safe abortion, and all of 
these women's stories refute safe abortion. We are not having 
safe abortion in this country. Women are being maimed. They are 
being harmed. They are not being able to have their own 
children because of it. Their children are dying on tables. 
They are turning to alcohol and drugs and suicide. I do post-
abortion counseling, and I just counseled a woman in the prior 
months that has tried to kill herself three different times and 
almost succeeded.
    Why aren't we talking about why this is not safe? These are 
the stories to tell, and there would be more stacked up here if 
women were not too ashamed and too afraid to come out and talk 
about this. And sometimes it doesn't happen for years. I wasn't 
able to talk about this for 5 years. There are women that won't 
be able to talk about it for 10 and 20 years. And I've heard 
multiple stories--hundreds--of how they have been maimed and 
wounded in every way. I can't even--it was hard for me to even 
bond with my own child that I adopted because of this 
procedure.
    I'm just begging for you people to protect women. This is 
not a good choice for women. Protect us. Do the right thing. 
Instead of looking at pocketbooks, I would like to ask the 
Committee how many people are receiving donations from Planned 
Parenthood on their campaigns, and that saddens my heart 
because would you choose that over protecting women?
    Mr. Chabot. Thank you very much.
    I yield back my time.
    Mr. Goodlatte. The gentleman from Tennessee, Mr. Cohen, is 
recognized for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Franks made a comment about a bill that was on the 
floor about 3 or 4 weeks ago, a born-alive children bill. On 
that same day, there was another bill on the floor to defund 
Planned Parenthood, and nobody on this side voted for them--
he's right--and he didn't come to the Subcommittee, and he 
didn't go to the full Committee for a markup or for a hearing 
because regular order did not apply because the Pope was going 
to be here, and we wanted to put the focus on this issue 
because it was politics.
    We're supposed to go to Committees for hearings like we're 
having today, and if there is a bill--and there's no bill here; 
this is just show business hearing--then there's supposed to be 
a markup. There was none of that. It went straight to the 
floor; no amendments allowed in the Rules Committee. So 
protocol was just done away with. It was politics, just like 
Benghazi was politics, and Kevin McCarthy told you it was 
politics. It accomplished its purpose of hurting the woman who 
is going to lead this Democratic Party, and the leading----
    Mr. King. Would the gentleman yield?
    Mr. Cohen. No, I won't.
    And just like that, and he admitted this is what they were 
doing, and this Planned Parenthood is the same deal.
    They're having a special Committee they've now set up, and 
yet Representive Chaffetz said there is not any evidence that 
there has been any law violated, and there isn't, and yet we're 
having a special Committee.
    Let me ask Dr. Levatino: You admitted that your video had 
nothing to do with--nothing to do with Planned Parenthood, 
correct?
    Dr. Levatino. The video that was shown was not shot at 
Planned Parenthood but may be relevant to procedures Planned 
Parenthood performed.
    Mr. Cohen. Don't tell me about relevance. I want--answer 
the question. It had nothing to do with Planned Parenthood.
    Dr. Levatino. The video was not shot at Planned Parenthood.
    Mr. Cohen. Right. Did you ever work for Planned Parenthood?
    Dr. Levatino. Yes, sir.
    Mr. Cohen. When?
    Dr. Levatino. When I was a resident.
    Mr. Cohen. When you were a resident. Not when you were in 
private practice, though?
    Dr. Levatino. Not in private practice, no.
    Mr. Cohen. So you didn't do 8 years working at Planned 
Parenthood?
    Dr. Levatino. Sorry, sir?
    Mr. Cohen. Do you or anybody else on the panel know--
because this is talking about medical ethics, is what this is 
entitled, ``Examining Abortion Procedures and Medical Ethics.'' 
Does anybody know one person who lost their medical license 
because of activity at Planned Parenthood?
    Ms. Stoltenberg, do you know of anybody that lost their 
medical license?
    Ms. Stoltenberg. No.
    Mr. Cohen. No?
    Ms. Thayer, do you know of anybody that lost their medical 
license?
    Ms. Thayer. No, there was never----
    Mr. Cohen. No?
    And, Dr. Levatino, do you know of anybody that lost their 
medical license?
    Dr. Levatino. I do not.
    Mr. Cohen. Medical ethics. Case closed.
    Second question: Ms.--I don't have your name right----
    Ms. Stoltenberg. Stoltenberg.
    Mr. Cohen.--Stoltenberg.
    And I'm sorry for your problems that you've had and your 
history. Your first abortion was at Planned Parenthood.
    Ms. Stoltenberg. That's correct.
    Mr. Cohen. Where was your second abortion?
    Ms. Stoltenberg. Emma Goldman's Clinic.
    Mr. Cohen. And where was your third abortion?
    Ms. Stoltenberg. I believe it was at Emma Goldman's, but I 
don't remember.
    Mr. Cohen. And Emma Goldman is not Planned Parenthood, 
right?
    Ms. Stoltenberg. They do the same types of procedures 
there.
    Mr. Cohen. A lot of places do the same procedures, but this 
hearing is about Planned Parenthood. So your second and third 
abortions had nothing to do with Planned Parenthood, right?
    Ms. Thayer, you now have a not for profit responsible--
what's the name of your not for profit you run?
    Ms. Thayer. Cornerstone for Life.
    Mr. Cohen. Yeah, and do you draw a salary there?
    Ms. Thayer. I get a stipend.
    Mr. Cohen. A stipend. And what is that stipend?
    Ms. Thayer. $1,000 a month.
    Mr. Cohen. A thousand. And when you make--you're considered 
a ``Christian speaker.'' Do you get paid to make your speeches 
or just expenses?
    Ms. Thayer. Usually, I don't get paid at all.
    Mr. Cohen. But you get your expenses?
    Ms. Thayer. I'm not getting paid to be here.
    Mr. Cohen. Well, I know that. That would certainly be 
wrong. The government doesn't pay any of us too much.
    The fact is this hearing is just like Benghazi. It's just 
like the Select Committee on Planned Parenthood. It's politics. 
And yet we've got major problems going on in this country. The 
whole idea that this is about Planned Parenthood is wrong. And 
Dr. Levatino has admitted medical ethics, everybody, there's no 
evidence of any medical ethical impropriety by Planned 
Parenthood; only a title that's been put up here. And Ms. 
Stoltenberg has one-third of her history with Planned 
Parenthood. It's unfortunate this is the way we're spending our 
time. It's really unfortunate.
    And I appreciate Planned Parenthood for what they do for 
lower income women, for women who need health services, who 
need family planning, who need cancer exams, cervical, breast, 
et cetera, and that are performed by Planned Parenthood. And 
I'm happy that Medicaid reimburses them, and that's good.
    And I yield back the balance of my time.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Utah, Mr. Chaffetz, for 5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    And I would just caution Members. I've heard my name 
several times invoked. Members, please be careful using this.
    The context of the comments that I made were in 
relationship to a hearing, as the Chairman of the Oversight 
Committee, that I conducted. The hearing that we conducted in 
Oversight was about the finances of Planned Parenthood. We 
didn't get into the content of what they do. We didn't get into 
the content of the video. We didn't get into the practices that 
they do. We didn't get into the fetal body tissue issues. We 
didn't do that. We were very narrowly focused on the finances.
    The point we were making is that Planned Parenthood had 
revenue of $127 million more than their expenses, and we 
started to look as a nonprofit organization on what people were 
making and how they were spending that money. They were sending 
money overseas. They were spending money and giving it to 
political organizations. They had a lot of shared services. I 
think that's a legitimate question as we look at the finances 
of an organization that is structured as a nonprofit 
organization.
    I was asked a direct question about the finances. That's 
the way I took the question given that that's what the 
direction and the drive of the hearing was about. Did we find 
any wrongdoing? The answer was no, but to suggest----
    Mr. Johnson. Would the gentleman yield?
    Mr. Chaffetz. In a minute. I will in just one moment. Just 
let me finish that thought.
    It is inappropriate to suggest that I have come to some 
grand conclusion about every part of their operation. In the 
Oversight and Government Reform Committee, we did subpoena the 
videos. We have some of those videos in the safe. We have 
jointly worked with the Democrats on that. We had a court 
ruling earlier this week to get the rest of those videos. There 
was a temporary restraining order in California that would not 
have released those videos. The judge recently ruled in our 
favor. Those videos are now being sent to Congress. They may 
have arrived in the last few hours, and I'm just not aware of 
it. And then I will work with Elijah Cummings and figure out 
the best course on what to do with these videos.
    But just caution to Members that it's a bit of a stretch to 
say that I have done some conclusive investigation on all the 
actions of Planned Parenthood.
    Did I look at the finances and have a hearing specifically 
as to the revenue portion and how they spend? Yes. Was there 
any wrongdoing? I didn't find any, but I do think it's a 
legitimate question for all of us. Why do we send money to an 
organization where the revenues exceed their expenses by $127 
million? It doesn't sound like an organization that needs to be 
supplemented by taxpayer dollars. That was my point.
    Mr. Johnson. Will the gentleman yield for a question?
    Mr. Chaffetz. And I'm happy to yield.
    Mr. Johnson. Yes. I just want to ask, Representative, 
whether or not you have any evidence whatsoever that Planned 
Parenthood has broken the law in any way.
    Mr. Chaffetz. I think some of the video that's been out 
there, the rumors that have been swirling, some of the 
testimony that we have heard causes a lot of people to 
legitimately ask and dive into whether or not what they're 
doing is illegal. I think it's a very legitimate question from 
an objective point of view, without getting into the emotions 
of it, and so I think there will continue to be investigations. 
I voted in favor of the Select Committee, which I think does 
have to go further and dive deeper into those issues, but I 
don't think that the final chapter has been written on that. My 
point was that we were talking specifically about the finances.
    And I would remind Members, there was all this criticism 
that we were going after women, and that is so false. What is 
the first not-for-profit organization that we went after in the 
Oversight and Government Reform Committee? It was the NFL. I 
called out the NFL. They were structured as a not-for-profit 
organization. We called out Roger Goodell for making an 
exorbitant salary and taking advantage of the Tax Code, and do 
you know what? The NFL, to their credit, restructured, and for 
the first time--I believe it started in July--the 1st of July--
they are now no longer a not-for-profit organization.
    So, in a very bipartisan way, with Elijah Cummings and the 
Democrats, we worked on that issue and made a major 
transformation, a major change. And I think looking at another 
not-for-profit organization who's taking a lot--hundreds of 
millions of dollars of taxpayer money--that's a legitimate 
decision in the context of an $18 trillion-plus debt, and 
that's the discussion we had. I'm proud of it, and I think we 
had a very good hearing.
    With that, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Georgia, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Stoltenberg, would you mind me having a look at one of 
the books that you have compiled.
    Ms. Stoltenberg. Would you like me to bring it up to you?
    Mr. Johnson. No. I'll send someone down to take a look at 
it.
    And while she's coming down to do that, let me ask Dr. 
Levatino a question.
    Sir, is there any circumstance under which you would agree 
that a woman should have a right to have an abortion to abort a 
fetus that arose from incest or rape?
    Dr. Levatino. If I were a Congressman, sir, I would support 
such a law.
    Mr. Johnson. You would support a law that would ban 
abortions----
    Dr. Levatino. Not ban. Allow.
    Mr. Johnson. Oh, that would allow. So you believe that a 
woman should have a right to choose in the case of incest or 
rape.
    Dr. Levatino. If a woman is pregnant by incest or rape, her 
child is innocent, all the same. Morally, I have a great 
problem with that. Politically, I would vote for such a law.
    Mr. Johnson. And what about you, Ms. Thayer?
    Ms. Thayer. Two wrongs don't make a right. Sperm meets egg. 
Unique DNA. Heartbeat at 21 days. It's never okay to have an 
abortion. We have 57 million missing people since 1973.
    Mr. Johnson. So you went to work at Planned Parenthood 
knowing that part of the work that Planned Parenthood does is 
terminating pregnancies?
    Ms. Thayer. Well, actually, no, I didn't.
    Mr. Johnson. You did not know that when you went to work?
    Ms. Thayer. No. I started there as a clinic assistant, and 
I----
    Mr. Johnson. Well, let me ask you this question.
    You are a woman who was fired by Planned Parenthood, and 
you are a disgruntled ex-employee. Is that correct?
    Ms. Thayer. Well, that's what they say, but I'm----
    Mr. Johnson. Well, you were fired, correct?
    Ms. Thayer. I was--they were downsizing.
    Mr. Johnson. And you are now disgruntled. Is that not 
correct?
    Ms. Thayer. No, that's not correct.
    Mr. Johnson. So you loved Planned Parenthood?
    Ms. Thayer. I loved my work there. There were things that 
happened there that I knew were wrong, like making----
    Mr. Johnson. You believe----
    Ms. Thayer.--Medicaid eligible women pay for those pills.
    Mr. Johnson. Do you believe that they should be defunded?
    Ms. Thayer. Indeed, I do. I don't think one more dime of 
taxpayer money should go to an organization that's wrought with 
fraud.
    Mr. Johnson. Well, Dr. Levatino--and thank you, Ms. Thayer. 
You've got a lawsuit pending, by the way, right?
    Ms. Thayer. I do, a whistleblower.
    Mr. Johnson. It's a whistleblower case where, if you win, 
you'll make a lot of money.
    Ms. Thayer. We never really talked about that.
    Mr. Johnson. Well, you'll make a lot of money if you win. 
Take it from me.
    Ms. Thayer. Well, I don't need a Lamborghini, and my Ford 
Fiesta is paid for, so I don't know what I would do with that.
    Mr. Johnson. Well, money doesn't matter, though, to you.
    Ms. Thayer. Right. Telling the truth is what matters.
    Mr. Johnson. All right. Okay.
    Well, Mr. Levatino, as far as you know, Planned Parenthood 
doesn't make political contributions, does it?
    Dr. Levatino. I have no idea what contributions Planned 
Parenthood makes.
    Mr. Johnson. Or if they do make contributions, they don't 
do it, do they, Ms. Fredrickson?
    Ms. Fredrickson. I'm not familiar with the entire corporate 
structure of Planned Parenthood.
    Mr. Johnson. All right. Well, doctor, are you aware of the 
stories of the many women whose lives have literally been saved 
by Planned Parenthood?
    Dr. Levatino. In what way, sir?
    Mr. Johnson. Well, that's not my question. My question is, 
are you aware of that being the case?
    Dr. Levatino. It's hard to answer the question without 
knowing in what context you're asking it.
    Mr. Johnson. Okay. How about you, Ms. Thayer?
    Ms. Thayer. I guess I would ask the same question.
    Mr. Johnson. Okay. You don't want to answer the question 
then. Well, you haven't heard about the story of Tiffany, who 
was so broke that she couldn't afford a regular doctor's visit, 
so Planned Parenthood was her only option and that a routine 
Pap smear at Planned Parenthood diagnosed her with cervical 
cancer, the early discovery of which saved her life. Are you 
not familiar with Tiffany's case?
    Ms. Thayer. I guess I would ask how much money they asked 
from Tiffany after they did her Pap smear.
    Mr. Johnson. I'm sure that it was gladly payable for her 
life to be saved.
    Ms. Thayer. It would be 50 percent of whatever her charges 
were that day.
    Mr. Johnson. It could not be more than the value of her 
life, I can guarantee you that. I'm sure she's quite happy at 
the little bit that she paid, but----
    Ms. Thayer. If she would have gone to a federally qualified 
health center, it would have been free.
    Mr. Johnson. Maybe she could not have gotten 
transportation.
    Ms. Thayer. Well, in my town, it's four blocks from the 
Planned Parenthood.
    Mr. Johnson. And that's in your neighborhood, though. But 
there are other people with different circumstances, and 
shouldn't you be concerned about them?
    Ms. Thayer. Well, there's 20 free clinics for every one 
Planned Parenthood. I mean, compared to Planned Parenthoods, 
they're everywhere.
    Mr. Johnson. And the purpose of this hearing was to shut 
down Planned Parenthood because of abortion.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Texas, Mr. Gohmert, 
for 5 minutes. And would you yield back to me briefly?
    Mr. Gohmert. Yes, I yield back.
    Mr. Goodlatte. Thank you.
    I just want to state for the record regarding the point Ms. 
Thayer just made.
    In the State of Georgia, there are four Planned Parenthood 
locations, most or all of which provide abortion services. In 
Georgia, there are 274 other health care alternatives that 
provide women's services that do not provide abortions. So, in 
terms of convenience and location to get to, I think there'd be 
a good argument that there's much more convenience to get to 
healthcare facilities. These are public healthcare facilities, 
too, that do not include abortion services.
    I thank the gentleman for yielding.
    Mr. Gohmert. Thank you.
    Reclaiming my time, Ms. Thayer, I think there was some 
effort to cast doubt on your capabilities in working for 
Planned Parenthood since you were not an attorney. I don't know 
how many attorneys we have running Planned Parenthood 
facilities, but I hope there aren't many.
    Ms. Thayer. There's typically one, probably, per affiliate.
    Mr. Gohmert. Really? One lawyer per Planned Parenthood 
affiliate?
    Ms. Thayer. Yes. They do lobbying, and they run the PAC, 
you know, the political action committee, Planned Parenthood.
    Mr. Gohmert. Planned Parenthood has a PAC?
    Ms. Thayer. Yes, indeed. They make donations to many----
    Mr. Gohmert. And how many mammograms do those PACs do?
    Ms. Thayer. Zero. Planned Parenthood does not do 
mammograms.
    Mr. Gohmert. So, if we cut Federal funding for Planned 
Parenthood across the country, how many women would be denied 
mammograms?
    Ms. Thayer. Zero.
    Mr. Gohmert. But if we cut funding for Planned Parenthood, 
there would be some lawyers that do the lobbying and some 
people that get political donations that would not be getting 
those political donations, and lawyers that would have to look 
for some other form of money and financing, right?
    Ms. Thayer. Yes.
    Mr. Gohmert. My friend from California had indicated that 
it was a myth that if we defund Planned Parenthood that we 
could provide services to all the women that Planned Parenthood 
had been helping. And yet, when we hear the actual facts, it 
turns out, wow, if we provided the money directly to healthcare 
facilities that do nothing but help women with the full range 
of services for women, including mammograms and things that 
Planned Parenthood never does, it sounds like women would have 
even better services, more services even though a lot of hearts 
would break for the lawyers that would not be able to get the 
Federal funding and be able to lobby and donate to our 
Democratic friends.
    I was so pleased with the comment from my friend from 
Tennessee that Benghazi was politics. That's exactly what we've 
been trying to get to. It was politics. You had people meeting 
here in America--in Washington--while people were dying, while 
Ty Woods was gathering David Ubben and Glen Doherty and going 
to the rooftop to man guns to try to protect the people in 
those facilities.
    Yes, Benghazi was about politics, and I would love to know 
what the President was doing that night because I can tell you, 
if I had people that worked for me--my personal ambassador is 
missing--I could not go to bed. And yet, apparently, there was 
plenty of rest before he went to the fundraiser in Las Vegas 
the next day.
    Yes, my colleague is right. Benghazi was about politics, 
and we need to get to the bottom of why those four people were 
killed while nobody in Washington that knew what was going on 
lifted a finger, and why David Ubben doesn't even get an 
American plane. Somebody else has to provide a plane. He's on a 
gurney, and they're beating his leg--blown off--against the 
sides of that little plane while somebody in Washington knows, 
but they're doing nothing. You bet it was politics. And a lot 
of people--four people died, and a lot of people suffered 
because of that politics.
    This is a hearing about Planned Parenthood. My colleagues 
want to keep talking about Benghazi. I felt like, if they're 
going to bring it up, we need to say, yes, that was politics, 
and we need to find out why it was so political instead of 
coming together as Americans and protecting those people 
harmed.
    My time has expired.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Florida, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, it's remarkable to me that the two most 
important issues of the majority has now collided into one 
hearing, that a Planned Parenthood hearing has now become a 
hearing on Benghazi.
    Yesterday, the House created a Select Committee to 
investigate abortion practices, meaning that today's hearing is 
even more pointless than it was before. The House Judiciary 
Committee is now one of four Committees here in the House 
investigating Planned Parenthood.
    What exactly are we investigating today? Let's be clear. No 
one's said this yet, but we just need to be clear about it: The 
goal of the majority is to return to a Nation where Roe v. Wade 
is not the law of the land and where women do not enjoy the 
constitutional right that the Supreme Court made clear they 
have to make decisions about their own body. That's what this 
is about.
    Now, I don't know why we're here. We're not here to talk 
about the fruitless investigations undertaken by at least six 
different States, including my own, that have failed to find 
any illegal wrongdoing by Planned Parenthood. We're not here to 
discuss the merits of fetal tissue donation given that The New 
England Journal of Medicine recently wrote that virtually every 
person in this country has benefited from research using fetal 
tissue. And we're not here to discuss the Federal court issued 
this week mandating that The Center for Medical Progress turn 
over more of its misleading and fraudulent documentation.
    This hearing's only purpose is to smear a healthcare 
provider that serves millions of women every year, a provider 
that, I might add, enjoys a higher approval rating among the 
American people than, I would guess, any Member in this body 
enjoys.
    Now, as this Committee contemplates the medical ethics of 
women's reproductive freedoms, I ask this question: What are 
the medical ethics of not holding any hearings on a gun 
violence epidemic that claims the lives of 30,000 Americans 
every year? What are the medical ethics of not holding a 
hearing on the 12,000 homicides and accidental gun deaths and 
the 18,000 gun deaths by suicide that occur every year? And 
what are the medical ethics of States trying to ban 
pediatricians from discussing basic gun safety measures with 
parents?
    This House Judiciary Committee has held zero hearings on a 
gun violence epidemic that claims American lives every day--
every day, an average of 88 Americans die of gunshot wounds--
nor has this Committee held hearings on the deadly mass 
shootings that have inflicted so much grief in communities 
across America--not after Tucson, not after Aurora, not after 
Newtown, not after Santa Barbara--and there have been none 
scheduled after Roseburg and not after any of the more than 200 
mass shootings that have already occurred in 2015 alone.
    October is Domestic Violence Awareness Month. In 2013 
alone, more than 1,600 women were murdered by men, and 94 
percent of them were gun deaths. So while this Committee 
continues its redundant attacks over women's health, it ignores 
the reality that, every day, American women are murdered due to 
domestic gun violence. Yet as Congress works to ensure that 
women face even more humiliating obstacles to safe and legal 
abortion access, the U.S. Congress stands idly by as violent 
offenders are still able to skirt background checks and get 
guns to commit horrific crimes.
    The American people are rightly frustrated with Congress 
for failing to take any action, even the most basic action of 
closing the gun show loophole in the aftermath of so much 
devastation. There are dozens of bills that deserve hearings in 
this Committee of their jurisdiction--this one, the Judiciary 
Committee. I don't have the time to name them all, but I'll 
name a few. There's a bipartisan Public Safety and Second 
Amendment Protection Act, introduced by Congressmen Thompson 
and King, that would close gun sale loopholes with 
comprehensive background checks for all purchases. There's 
Congressman Quigley's TRACE Act that would empower law 
enforcement to stop the flow of guns through our streets by 
traffickers who make a living selling guns to criminals. 
There's Congresswoman Maloney's legislation to lift the ban on 
Federal research on gun violence and how to best curb it. 
There's my own legislation, the Safe and Responsible Firearms 
Transfer Act, to prevent guns from being sold without 
background checks.
    Not one of those bills--not one--has been the subject of a 
hearing from this Committee, Mr. Chairman, not even a hearing 
where the majority can bring up witnesses to tell us why 
bipartisan proposals, supported overwhelmingly by the American 
people and gun owners, are somehow too extreme. There has not 
been a single hearing of the 114th Congress on any commonsense 
improvements to our gun laws. The American people are already 
frustrated with Congress for failing to act on gun violence. 
The time for silence on this issue is over.
    You know, at the beginning of the hearing today, one of my 
colleagues talked about the self-imposed blindness--self-
imposed blindness. That's the self-imposed blindness that 
Congress has to gun violence. He said that the humanity of the 
victims, he hopes, becomes so glaring that it moves an entire 
generation of the American people. I can only hope that the 
humanity of the victims of the thousands--tens of thousands of 
lives lost to gun violence might move this Congress to finally 
take action.
    I yield back.
    Mr. Goodlatte. The gentleman yields back.
    The Chair recognizes the gentleman from Idaho, Mr. 
Labrador, for 5 minutes.
    And would the gentleman yield to me briefly?
    Mr. Labrador. Yes, I will.
    Mr. Goodlatte. I'd like to say that there are right now on 
the books hundreds of Federal gun control laws and regulations, 
and yet in the last 6 years, the enforcement--the prosecutions 
for violations of all of those laws are down by 30 percent.
    It seems to me that an Administration that's led by an 
individual who calls for more laws every time we have one of 
these tragedies ought to go look in the mirror and determine 
what's appropriate to do.
    Mr. Deutch. Will the gentleman yield?
    Mr. Goodlatte. I will not yield. It's the gentleman from 
Idaho's time.
    Mr. Deutch. That's why we should have a hearing about it.
    Mr. Goodlatte. It is a problem that can be addressed with 
the laws that exist now. There are, by the organization that is 
the actual subject of this hearing today, 350,000, plus or 
minus, abortions conducted by this organization every year--
nearly 1,000, nearly 1,000 a day--and that's why we're here, 
focused on this hearing today, to make sure that we're aware of 
whether more laws are needed to protect the lives of the 
unborn.
    I yield back to the gentleman from Idaho and thank him.
    Mr. Labrador. Thank you, Mr. Chairman, and thank you for 
making that point that I was also going to make.
    It's hard to sit here and be lectured about something like 
that when, apparently, there's no concern for the child--the 
lives of children, of babies--babies born alive.
    Dr. Levatino, can you tell me how many babies are aborted 
every single day? Do you know?
    Dr. Levatino. I have no idea.
    Mr. Labrador. Do you know, Ms. Thayer?
    Ms. Thayer. Well, there's 13 in Iowa every day, and think 
of it as a kindergarten class every 2 days.
    Mr. Labrador. Do you know how many late-term abortions 
there are every single day in Iowa?
    Ms. Thayer. No, not exactly.
    Mr. Labrador. Ms. Fredrickson?
    Ms. Fredrickson. Well, first of all, I don't think ``late 
term'' is actually a technical term, so I don't know how to 
respond to that. But I don't know the number of abortions that 
take place every day in American.
    Mr. Labrador. You don't. Okay. But you're a expert on this 
issue.
    Ms. Fredrickson. I'm not here to talk about medical 
procedures. I'm here to talk about the law.
    Mr. Labrador. Okay. I was just lectured at the number of 
deaths, and I just wanted to know if the panel knew how many 
children who are being killed every single day that we know. Do 
you know?
    Ms. Stoltenberg. I believe it's almost 4,000 a day, not by 
Planned Parenthood but by the abortion industry.
    Mr. Labrador. And do you know how many late-term abortions 
there are--or over 20 weeks?
    Ms. Stoltenberg. No.
    Mr. Labrador. Do you know those numbers?
    Ms. Stoltenberg. No, I don't.
    Mr. Labrador. Okay. Thank you.
    I want to continue to emphasize that this is not simply a 
question of legality of Planned Parenthood's actions. We may 
never find the answer to that question whether they're legal or 
not legal, but reducing human beings to commodities by selling 
fetal body parts for profit, I think everyone should agree, is 
morally reprehensible.
    Based on the testimony presented today, it would also 
appear that Planned Parenthood has participated in other 
suspicious behaviors, and all of that at the expense of the 
American taxpayers. I am not convinced that Planned Parenthood 
will cease to exist without taxpayer funding. Furthermore, I am 
not convinced that revoking taxpayer funding from Planned 
Parenthood would disadvantage women's health to the extent that 
my colleagues would like to claim.
    I want to talk just about my home State of Idaho. It has 
three Planned Parenthood locations--two in the Boise area, one 
in southeastern Idaho--and if you look next to that, it has 129 
better healthcare alternatives. All three of these centers are 
within 136 miles of each other in a massive State that 
stretches for thousands of miles and includes a vast amount of 
rural areas.
    According to Planned Parenthood's own data, the three 
centers in Idaho served around 7,000 patients 2013. 
Alternatively, the State of Idaho has 76 federally qualified 
health center service sites that served a little over 138,000 
patients in 2013. Look at that: The difference between 3 and 
76; the difference between 7,000 patients and 138,000 patients. 
So anybody who's making the argument that they're not going to 
receive health care is really lying to this Committee. These 
services' sites cover a much broader cross-section of the State 
and have the capacity to serve a diverse population of Idahoans 
seeking medical care.
    Ms. Fredrickson, can you walk us through the services that 
Planned Parenthood provides once again?
    Ms. Fredrickson. Well, the vast majority of Planned 
Parenthood's services are related to reproductive health care. 
They provide family planning counseling and contraceptive care 
as well as cervical cancer tests and breast exams.
    Mr. Labrador. And how is that different----
    Ms. Fredrickson. Pap smears.
    Mr. Labrador. How is that different than the other 
federally qualified health centers?
    Ms. Fredrickson. 2.7 million women in America use the 
Planned Parenthood facilities every year. It's an absolutely 
critical part of our health care infrastructure.
    Mr. Labrador. But more women use the other Federal health 
centers. Is that not correct?
    Ms. Fredrickson. Public health experts say there is no way 
that the public health system can absorb the capacity that 
would be lost if Planned Parenthood was not funded.
    Mr. Labrador. But the numbers just don't speak to that.
    Ms. Fredrickson. I defer to the experts as, I think, 
Congress should.
    Mr. Labrador. Name one expert.
    Ms. Fredrickson. I've named in my testimony.
    Mr. Labrador. And can you name one right now?
    Ms. Fredrickson. The American Public Health Association.
    Mr. Labrador. Okay. Thank you. It took you a couple of 
seconds there.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Illinois, Mr. Gutierrez, for 5 minutes.
    Mr. Gutierrez. Thank you, Mr. Chairman.
    First of all, it's legal in the United States of America to 
have an abortion. It's the law of the land. And we all took an 
oath to uphold the Constitution and the laws of this land, and 
I'm going to do that.
    Now, it's clear to anybody listening to this procedure that 
this is about Planned Parenthood because Planned Parenthood 
offers abortions, but they're not doing anything illegal when 
they do it, and no one here has testified that they're doing 
anything illegal.
    They object to the fact that they offer abortions because 
that's their point of view. They don't like the law. They can't 
change the law. They can't undercut the Constitution of the 
United States and the Supreme Court. So what do they do? They 
try to sully the reputation of an organization. And you know 
what? You guys have opened one big Pandora's box here because, 
on repeated occasions here today, the majority and their 
witnesses have questioned the integrity of Members of the 
minority panel by questioning who it is we receive campaign 
contributions from.
    So, from here forward, we should just open it up, Mr. 
Chairman, every time on any issue. I want to know how much you 
get from the NRA. I want to know every dollar you receive from 
every--and we should just open it up. That would make it great. 
I'm not that worried about it.
    I tell the women of America you are safe because you have a 
President of the United States that will veto any legislation 
that comes out of this Committee and might make it to the floor 
of the House.
    He'll veto that legislation, and there's nothing you can do 
about it. He'll veto that legislation, and they will be safe.
    I'm not worried. They can't pick--they've got 250 Members, 
and they can't figure out how to pick the Speaker of the House. 
Do you think they're really going to turn back the clock on 
women in America? They can't even pick their own leader, so I'm 
not that worried about where we're going. But I will stand up 
for women because it seems to me that what we're really talking 
about here today is turning back the clock, turning back the 
clock, a clock in which I grew up.
    When I was born in United States of America, separate but 
equal was still the law of the land when I was born. The only 
day I was White was the day I was born, and they put it on my 
birth certificate because, apart from that, I was never treated 
equal--certainly separate but not equal--to everybody in this 
country. And women, yes, had to go to back alleys and cross 
State lines and had to lose their lives in order to get 
reproductive healthcare rights in this country. That's true. We 
all know it.
    But let me just suggest the following: My mother's only 
option was the one option the Government of the United States 
gave her, which was sterilization. And for hundreds of 
thousands of Puerto Rican women, that was the only option. 
There were other options that my wife and I had. We have two 
wonderful daughters, two brilliant--and let me just say 
something. I respect my daughters, and I trust my daughters to 
make decisions as I do for all women in this country, and we 
should all respect women to make the decisions that they 
fundamentally have to make about their lives and their future.
    But, moreover, you know something? There's an 8-year 
difference between my first child and my second child, and the 
reason was because my wife had control over her reproductive 
system. And she could have a life, and she could take her 
education, and she could have a life, and she could have a 
career, and she could be everything that she can be.
    My mom didn't have that ability, and my daughters have 
greater rights and greater abilities. And I will be damned if I 
am going to allow on my watch for the rights of women, 
especially the women who are so important to me in my life, to 
be turned back by that clock. We're not going to turn back the 
clock. As much as you wish to turn back the clock, gay people 
are not going back in the closet. Latinos and Asians and 
immigrants aren't going to disappear. And women are not going 
to get back-alley abortions and put their lives at risk again 
while Americans are standing up for a better, more inclusive, 
and egalitarian future for everybody in this country.
    So, look, nothing here that any of the witnesses have said, 
even those afforded by the minority, is going to change 
anything. We're good. We're in a good place because there is a 
new, growing coalition in America. We all know what it is. It's 
people who care about Mother Earth. It's people who care about 
women and their rights. It's people who care about gays and 
lesbians. It's people who care about immigrants. It's people 
who care about making sure that we have fair and decent 
salaries.
    And you want to know something? Donald Trump likes to talk 
about the polls. Well, I've got a poll. And in my poll, the 
vast majority of the American people want to move forward and 
not turn back the clock.
    Thank very much, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Poe, for 5 minutes.
    And would you yield to me very briefly?
    Mr. Poe. I'll yield to the Chair.
    Mr. Goodlatte. I just want to make one point that when we 
passed the Pain-Capable Abortion Act, we introduced into the 
record evidence that in every demographic group, men, women, 
people of various races, age, in every demographic group, a 
majority of the people in this country support prohibiting 
abortions after 20 weeks.
    I thank the gentleman and yield back.
    Mr. Poe. I thank the Chair. I want to try to get back on 
the subject that we've been talking about. When Mr. Johnson, on 
the other side, asked does Planned Parenthood do political 
contributions, if I remember the testimony, two of you said 
that Planned Parenthood didn't give contributions to anyone.
    Ms, Thayer, do you know whether Planned Parenthood 
contributes to Federal candidates?
    Ms. Thayer. Yes, they do. They have a PAC.
    Mr. Poe. And what is the name of the PAC, do you know?
    Ms. Thayer. No. I don't remember. It's just called a PAC.
    Mr. Poe. Planned Parenthood PAC?
    Ms. Thayer. Yes.
    Mr. Poe. Would it surprise you in the election cycle 2014, 
Planned Parenthood PAC contributed a little over $400,000 to 
Federal candidates?
    Ms. Thayer. No. That wouldn't surprise me at all.
    Mr. Poe. One hundred and thirty-eight Federal candidates, 
would that surprise you or not?
    Ms. Thayer. No.
    Mr. Poe. $400,000, seems like you could do a lot of other 
things with $400,000 instead of giving it to people running for 
Congress.
    Ms. Thayer. Well, one thing they could do with it is take 
some of that money and put doctors or nurse practitioners in 
the rural centers. In Planned Parenthood in Iowa, we had a 
nurse practitioner 2 hours a week. And in my almost 18 years 
there, we had a doctor in the facility probably 3 or 4 times. 
So all those pills are being dispensed by nonmedical people. I 
think that would be a much better use of their money.
    Mr. Poe. And since the minority did bring it up, Mr. 
Chairman, I would like to introduce in the record the open 
secrets document of contributions by Planned Parenthood PAC.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
           
                               __________
    Mr. Poe. The talk has also been about--and I resent the 
other side talking about, generalizing those of us over here 
are against women. I resent that. I have four children, three 
daughters. I have 11 grand kids, 7 granddaughters. One of those 
is adopted. And I'm not a female. I agree with that comment. 
But the idea that we don't like women is absurd. I think many 
of us are trying to look out for the life of new women coming 
into the world. What about those women? And I think they're 
women when they're harvested for their body parts. I'm 
concerned about those women. So I'm not going to put up with 
saying that, me, that I'm opposed to women. Let's talk about 
those women. If Congress doesn't speak for them, who speaks for 
them? You all speak for them. So I know that's not the issue.
    The issue is Planned Parenthood. It's also, I think Planned 
Parenthood seems to do a pretty good job of marketing Planned 
Parenthood. Would you agree with that, Ms. Thayer?
    Ms. Thayer. Yes, very much so.
    Mr. Poe. Do you have any idea how much money Planned 
Parenthood spends on marketing Planned Parenthood?
    Ms. Thayer. In Iowa, they marketed the family planning 
waiver, spent lots and lots of money at the expense of staff 
raises that year, and made it sound like the family planning 
waiver was their own creation. And it was actually State 
dollars.
    Mr. Poe. I want to apologize to you for the insinuation 
that you did something wrong by being a whistleblower, and 
you're being attacked because you talked about or brought 
evidence about an organization. That's what we do, 
unfortunately, we attack whistleblowers across the board it 
seems like.
    Also the comment was made that we got to have Planned 
Parenthood, or there's no other answer. Well, I have this 
chart, maybe it's on the screen, Mr. Chairman, of Texas where 
I'm from. And most of these, you can't see them too well; 
they'll be on the far right on the screen, the Planned 
Parenthood areas are in the metropolitan areas, 38 of them. But 
most of Texas is not in the metropolitan area. I mean, the 
State is the vast State. There are parts over here on the other 
side with all the white dots where you have federally funded 
healthcare centers. I would submit to you and to the record 
there are places in Texas that there are federally funded 
healthcare centers that aren't on Google Maps. They're in 
remote districts like where Louie Gohmert is from or in west 
Texas, in small little towns. So that's not an accurate 
portrayal of women's health care in the country.
    The federally funded healthcare units are everywhere, 
rural, city. And Planned Parenthood in Texas, anyway, is just 
in the metropolitan areas. Is that the way you understand it, 
Ms. Thayer?
    Ms. Thayer. Well, and the really important----
    Mr. Goodlatte. The time of the gentleman has expired. Ms. 
Thayer will be allowed to answer.
    Mr. Poe. Thank you, Mr. Chairman.
    Ms. Thayer. It's important to remember that all those FQHCs 
have doctors there. And they don't charge Medicaid-eligible 
women, unlike Planned Parenthood.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentleman from Louisiana, Mr. Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Let me just clear up some things that, Mr. Chairman, you 
volunteered some statistics on how many gun laws we have. 
That's exactly why we're asking for a hearing. This Committee 
could do great things. We had a hearing on GSA's failure to 
meet the needs of the judiciary, which was the cost of 
courthouses, building of courthouses in Members' districts. So 
we really could do big things. But we waste it on things like 
this.
    And my colleague on the other side said what he resents. I 
resent a whole bunch of stuff. And if people say you oppose 
women--I didn't say it--but that's between you and women. But I 
won't have is you saying that Planned Parenthood may or may not 
have donated to someone affects their positions on choice and 
other things because I think people make those decisions long 
before they get to Congress.
    The other thing I would say is that the hypocrisy in the 
room is unbelievable. This year in the State of the Union, the 
President mentioned that abortions were at an all-time low, 
which I would think is our goal. Everybody in the room, the 
goal is to get to zero. The President announces it's at an all-
time low, not one person on the Republican side stood up or 
cheered.
    There's a bunch of ways we can try to get to zero. You can 
try it by doing a law. The rich will fly out of the country and 
still have them. The poor will go in the alleys and risk their 
lives so that they can have them.
    Or we can still invest in prenatal care, paid parental 
leave, investing in our foster care system, raising the minimum 
wage so that women can raise a child. We can do all of those 
things.
    But we're not because we're so stuck on saying that I'm 
pro-life. Yeah, until the baby is born. And then when the baby 
is born, you're like: You're on your own. We're not going to 
help you do anything.
    So if we're going to have a conversation and if it's about 
Roe v. Wade, well, we can't do anything about it. As much as 
the other side would like to be the President and tell him how 
to handle immigration, Benghazi, and all those other things, 
you're not the President. As much as you would like the Court 
to overturn Roe v. Wade, none of you are on the Supreme Court. 
But you're able to run for President. And you're able to 
express an interest in the Supreme Court.
    But we in Congress have a bunch of things that we could be 
working on and having meaningful hearings to figure out how we 
get to the ultimate decision or ultimate desire that we want. 
And if it's zero abortions, then let's talk about how we get 
there. But you know you're not going to overturn Roe v. Wade.
    So I just hate that we've come here and we drag witnesses 
here and put them in the position of testifying on things that 
they can't control just so we can do messaging. And that is the 
problem in this country. When we could be actually trying to 
accomplish something.
    And we keep talking about Benghazi. I'm okay with letting 
the facts play out how they'll play out because I think it is 
important for the American people to see how government works. 
And when there's something wrong, you figure out what went 
wrong and you try to fix it. But it's too often we try to play 
gotcha moments when there are no gotcha moments. Instead of 
being respectful for the deceased, the people who gave their 
life for this country, and trying to figure out how we prevent 
things like that from happening again.
    So, you know, let me just say, and I'll ask Ms. 
Stoltenberg, since I do have a minute, do you think that if the 
law just said you can't have an abortion, that we would go to 
zero abortions?
    Ms. Stoltenberg. No. I don't believe we would go to zero 
abortions. But I believe there are many women dying today from 
legal abortions, probably more so because there are more 
abortions being done than there were when it was back alley. 
And there's more women being maimed and hurt and harmed like I 
was.
    Mr. Richmond. Do you think the law of the land would have 
made a decision on your decision? If it was illegal then, do 
you think it would have made a difference in your decision?
    Ms. Stoltenberg. In my decision? Oh, most definitely. I 
didn't illegal things. So I would not have had an abortion. And 
I would be able to see who my children are today.
    Mr. Richmond. But you do agree some women would, would 
still have it, even though--if Roe v. Wade was reversed, you 
agree that some women would still have them in back alleys?
    Ms. Stoltenberg. Would still have abortions?
    Mr. Richmond. Yes.
    Ms. Stoltenberg. Probably, yes. They probably would.
    Mr. Richmond. And the rich would still fly out of the 
country and have them in other places?
    Ms. Stoltenberg. Possibly they could. But there would be 
many lives that would be spared, many.
    Mr. Richmond. Mr. Chairman, I see my time has expired. So I 
yield back.
    Mr. Franks [presiding]. I recognize Ms. DelBene from 
Washington.
    Ms. DelBene. Thank you, Mr. Chair.
    I am deeply disappointed that this Committee is holding 
another one-sided hearing that's more about politics than 
factfinding.
    The attacks on women's health just never seem to stop. 
Meanwhile, we're ignoring a long list of bipartisan policies 
that deserve our attention. Right now, we could be talking 
about the much needed updates to email privacy laws. We could 
be talking about leveling the playing field for brick-and-
mortar stores. Or we could finally get to work on our country's 
broken immigration system.
    But, instead, we're wasting even more time on an 
investigation that the majority clearly prejudged before 
receiving a shred of evidence from Planned Parenthood.
    It's shameful, Mr. Chairman. This Committee should be 
focused on facts, not ideology.
    And so far, there are no facts to substantiate the claims 
made by my colleagues on the other side of the aisle, no 
evidence that Planned Parenthood has engaged in unlawful 
activity, period. So let's talk about what we do know: We know 
that 2.7 million Americans receive essential health care every 
year through Planned Parenthood. Seventy-eight percent of 
Planned Parenthood patients are low-income, with incomes at or 
below 150 percent of the Federal poverty level. In my home 
State of Washington, Planned Parenthood annually provides more 
than 34,000 cancer screenings. And across the country, the 
services provided by Planned Parenthood help prevent more than 
500,000 unintended pregnancies every year.
    That last number should give my colleagues pause. If we 
want to reduce the number of abortions provided in this 
country, attacking Planned Parenthood is certainly not the way 
to do it.
    But, at this point, it's clear that this investigation 
isn't about gathering facts at all. It's just part of an 
extreme ideological agenda to defund Planned Parenthood and 
take away a woman's constitutional right to choose.
    Ms. Fredrickson, your testimony mentioned that Planned 
Parenthood provides birth control and family planning 
counseling to 2.1 million patients each year. Could you speak 
about how women's access to birth control is related to their 
economic security?
    Ms. Fredrickson. Absolutely. It's a vital part of women's 
economic security. Women being able to control when, whether 
they have children has been a critical part of them being able 
to enter not quite into equal status in the American economy, 
unfortunately, but they're on their way. Women are doing 
better. Women are able to provide better for their families by 
ensuring that they have the families that they can, at the time 
when they want to have families or not to have children when 
they don't want to have children.
    Ms. DelBene. And what would be the impact on women if 
access to birth control through Planned Parenthood would be 
restricted?
    Ms. Fredrickson. Well, there would be many more unintended 
pregnancies. And, ultimately, there would be many more 
abortions. So the consequences of defunding Planned Parenthood 
would certainly lead to an increase in abortions in this 
country. And it would certainly undermine women's access to 
basic contraceptive care, which would undermine their ability 
to earn a living and control their own economic well-being.
    Ms. DelBene. So you believe that it would be harder for 
women to plan their families, plan their careers if Congress 
decided to defund this organization?
    Ms. Fredrickson. It's been a vital part of women being able 
to have independence, to be able to exercise, to determine 
their own fertility, to determine when and whether they have 
children. It allows them to enter into the workforce. It 
enables them to take care of the children that they have. It 
enables them to be treated more fairly in the workplace because 
they do have the choice about whether and when to have 
children.
    Ms. DelBene. And my colleagues have been, across the aisle, 
have been talking about how if Planned Parenthood wasn't, if 
Planned Parenthoods were not available in their regions, it 
would have no impact on women's access to health care. Again, I 
ask you what would be the impact on women throughout our 
country if Planned Parenthood was not available for health 
care?
    Ms. Fredrickson. Well, I think the fact that already we've 
discussed how 1 in 5 American women, that's 20 percent of 
American women, in their lifetime will use Planned Parenthood 
services. That's an enormously large number. And 2.7 million 
people per year use Planned Parenthood's services. The loss of 
those, the ability to use a Planned Parenthood health center 
would be enormous.
    Ms. DelBene. And I think you referenced a study that says 
that there are not other community health centers or other 
places who would be able to serve that same population.
    Ms. Fredrickson. Right. The expert opinion of the American 
Public Health Association says that there's just not the 
ability to absorb that capacity, that those women would just go 
unserved.
    Ms. DelBene. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Franks. The Chair now yields to Mr. Jeffries from New 
York for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chair.
    This is an enormous waste of taxpayer money for us to sit 
here at this hearing when we realize or should realize this is 
not a legitimate congressional exercise. This is not a 
factfinding hearing. This is theater. This is a charade. This 
is stagecraft. This is nothing more than a political hit job on 
a woman's right to choose, which, by the way, is 
constitutionally protected.
    And I've got the benefit of being one of the least senior 
Members here, and so I get to sit through much of the hearing. 
And there are only one or two of us left. And this hearing has 
gone on for hour after hour after hour. And yet no one has 
presented a shred of evidence, a scintilla of evidence that 
Planned Parenthood has done anything wrong.
    So I've got a few moments and let me see if I can uncover 
some evidence of wrongdoing. The hearing is called ``Planned 
Parenthood Exposed''--dramatic--``Examining Abortion Procedures 
and Medical Ethics at the Nation's Largest Abortion Provider.''
    Dr. Levatino, you're the only doctor on the panel, correct?
    Dr. Levatino. Yes, sir.
    Mr. Jeffries. Do you have any evidence that any Planned 
Parenthood doctor, nurse, physician has engaged in wrongdoing, 
violated medical ethics, or lost their license?
    Dr. Levatino. I do not have such evidence.
    Mr. Jeffries. And you're the only doctor on the panel, 
correct?
    Dr. Levatino. Correct.
    Mr. Jeffries. Does anyone else on the panel have any 
evidence that someone has violated their medical ethics?
    Ms. Thayer. Well, I would consider it a violation of 
medical ethics to do Web cam abortions without ever seeing the 
client or expecting nonmedical people to do medical procedures.
    Mr. Jeffries. Well, let's have a discussion. You were at 
Planned Parenthood for 18 years. Is that correct?
    Ms. Thayer. Right, about.
    Mr. Jeffries. And you were terminated?
    Ms. Thayer. Yes.
    Mr. Jeffries. And one of my colleagues asked whether you 
were a disgruntled employee, correct?
    Ms. Thayer. That already come up, yes.
    Mr. Jeffries. And you disagreed with that characterization 
I assume, correct?
    Ms. Thayer. I did. They were downsizing, let me go.
    Mr. Jeffries. Okay. Now, you alleged that Planned 
Parenthood was wrought with fraud. Is that correct?
    Ms. Thayer. Correct.
    Mr. Jeffries. In fact, you brought a Federal court action 
claiming that they've engaged in fraud, true?
    Ms. Thayer. Correct. False Claims Act.
    Mr. Jeffries. Now, under that False Claims Act, you would 
it be what is called a relator, correct?
    Ms. Thayer. Correct.
    Mr. Jeffries. And the government has intervened as well in 
that action, true?
    Ms. Thayer. The what?
    Mr. Jeffries. The government has intervened in that action?
    Ms. Thayer. Yes.
    Mr. Jeffries. Okay. And this was brought where? In the 
Southern District of Iowa?
    Ms. Thayer. Correct.
    Mr. Jeffries. Now, you testified earlier that you had no 
idea if you prevailed, whether you would receive monetary 
benefit. Did I hear that correct?
    Ms. Thayer. I said we hadn't discussed it. I had not 
discussed it with my attorney.
    Mr. Jeffries. You have not discussed that with your 
attorney?
    Ms. Thayer. No, sir.
    Mr. Jeffries. Okay. Now, you allege in this action that 
Planned Parenthood engaged in $28 million of fraud, correct?
    Ms. Thayer. Correct.
    Mr. Jeffries. And as a relator, you're entitled, under 
Federal law, to between 15 and 25 percent, correct?
    Ms. Thayer. I don't know. We've never discussed that.
    Mr. Jeffries. So you have a licensed attorney who has never 
discussed with you the fact that if you were to prevail in this 
lawsuit where you allege $28 million, that you could receive at 
much as $7 million? That's your testimony here today under 
oath?
    Ms. Thayer. Sir, for me, this is not about the money.
    Mr. Jeffries. Okay.
    Ms. Thayer. Yeah, it is not about the money. I'm here to 
try to tell the truth about Planned Parenthood and what I 
experienced in all those years there.
    Mr. Jeffries. Now, you don't have any evidence that Planned 
Parenthood engaged in fraud, correct?
    Ms. Thayer. I engaged in fraud every single day that I was 
there.
    Mr. Jeffries. Was your action dismissed at the district 
court level?
    Ms. Thayer. It was dismissed at district court and then 
reinstated by the Eighth Circuit Court of Appeals.
    Mr. Jeffries. Actually that's inaccurate. I've got the 
decision right here and I want to place it into the record.
    First of all, the district court judge dismissed your 
action because you had no evidence of fraud. By the way, it was 
a judge appointed by G.W. Bush. You then appealed it to the 
Eighth Circuit. And they affirmed the decision that you've got 
no evidence of fraud, remanded on a separate ground, good luck. 
But I will point out that the Eighth Circuit Court judges 
concluded, based on the district court's decision, you failed 
to plead fraud with specificity pursuant to 9(d).
    Mr. Franks. The gentleman's time has expired.
    Mr. Jeffries. And it's a matter of public record.
    And I yield back.
    Mr. Franks. The gentlelady can answer the question if she 
wants to.
    Ms. Thayer. Well, sir, the Eighth Circuit Court of Appeals 
reversed the district court. And it's now back in district 
court. We're waiting on a ruling from them.
    Mr. Jeffries. I would just ask the Chair because you didn't 
respond to my request, sir, to enter as a matter of record both 
the----
    Mr. Franks. Without objection.
    Mr. Jeffries [continuing]. District court decision and the 
Eighth Circuit Court decision.
    Mr. Franks. Without objection.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                __________
                               
                               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                             
                               __________
    Mr. Franks. The gentleman from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I thank the witnesses.
    I've now sat through the entire hearing. And I still don't 
exactly know what we're doing here. It's clear that this is not 
a hearing about the wrongdoing of Planned Parenthood because 
there is no evidence of wrongdoing. There is no testimony that 
has been presented that Planned Parenthood engaged in any 
wrongdoing. There have been six States that have reviewed this 
and concluded that Planned Parenthood has done nothing wrong. 
Seven other States cited a lack of evidence of wrongdoing and 
declined to investigate.
    Then somebody suggests it's about defunding Planned 
Parenthood. I'm not sure that's it.
    What I think the hearing is about, as best I can tell, 
having listened to every single one of my colleagues is, a 
fundamental view of some of the witnesses here that Roe v. Wade 
was wrongly decided. You have a right to that opinion. But what 
you don't have a right to do is smear a vital healthcare 
organization to advance that argument.
    There are people, and I respect deeply, there are people 
who have different views on whether or not Roe v. Wade was 
rightly decided, whether women should have full control over 
their reproductive health. I happen to think it was properly 
decided. You may disagree. But what I think is wrong and really 
regrettable is rather than having a hearing that says, ``Was 
Roe v. Wade decided properly,'' and we could have a public 
forum and have a debate about it, but this hearing is entitled 
and tries to insinuate that Planned Parenthood has done 
something wrong. The title of the hearing is, in fact, 
``Planned Parenthood Exposed: Examining Abortion Procedures and 
Medical Ethics of the Nation's Largest Abortion Providers.''
    So the hearing is intended somehow to suggest that by just 
attacking Planned Parenthood, we can undermine the decision of 
Roe v. Wade.
    I think it's very clear that Planned Parenthood provides 
critical services to women all across this country: 2.7 million 
individuals access health care through Planned Parenthood. That 
includes, by the way, and specifically, Ms. Fredrickson, that 
includes a range of breast cancer screenings, Pap smears, exams 
for sexually transmitted diseases, HIV tests, cervical cancer, 
a whole range of services. Is that correct?
    Ms. Fredrickson. Yes, sir.
    That's the vast majority of what Planned Parenthood does.
    Mr. Cicilline. Ninety-seven percent of the services they 
provide, is that correct?
    Ms. Fredrickson. Yes. That's correct.
    Mr. Cicilline. And Planned Parenthood is a respected 
healthcare organization. And some have suggested: Well, if we 
just close Planned Parenthood, people can get services 
elsewhere.
    As you've indicated in your written testimony, the experts 
who have looked at that said it is ludicrous and people who 
make such a claim fundamentally misunderstand the healthcare 
system. Is that correct?
    Ms. Fredrickson. That's absolutely correct.
    Mr. Cicilline. And so we're left with a hearing that lasted 
several hours in which people have made some assertions, played 
videos, some of which had nothing to do with Planned 
Parenthood, presumably made some claims that have nothing to do 
with the procedures followed by Planned Parenthood in an effort 
to bolster their position against the decision Roe v. Wade.
    What I think is regrettable is that I think Planned 
Parenthood has demonstrated unequivocally that it is a vital 
healthcare organization, that millions of women and families 
rely on Planned Parenthood, that the individuals who work there 
are professional, individuals of integrity who do their jobs 
and take their jobs seriously.
    And there was a suggestion that they're all motivated by 
profit. I've been to Planned Parenthood. I've been to a clinic. 
I've spoken to the individuals, the men and women who work 
there. And I want to say that my experience has been just the 
opposite. These are dedicated, committed professionals.
    And I think it does a disservice to the seriousness of the 
debate about the issue of abortion to malign an organization 
that does important work and that is saving lives. We can have 
a real debate as to whether or not the Supreme Court should 
change its decision on Roe v. Wade. I think they shouldn't.
    But it is settled law. It's the law of the land. And the 
way you challenge that is you bring a case and you make a 
different legal argument. You don't attack individuals who are 
following the law, who are performing a legal medical procedure 
that is saving lives of women in this country. I regret that we 
spend time doing that.
    I thank the witnesses for being here. I hope that we can 
focus on the real issues that were mentioned: immigration 
reform, making sure we pass the Marketplace Fairness Act, 
dealing with the scourge of gun violence in this country. The 
agenda of this Committee is very long. Let's get to work on the 
issues that matter to the American people.
    And, with that, Mr. Chairman, I yield back.
    Mr. Franks. I want to thank all the witnesses for being 
here today. This concludes today's hearing. Thanks to our 
audience.
    And, without objection, all Members will have 5 legislative 
days to submit additional written questions for the witnesses 
or additional materials for the record.
    And, with that, thank you, this hearing is adjourned.
    [Whereupon, at 6:40 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               
                               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
